       SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




                Report of Inspection


Embassy New Delhi, India



 Report Number ISP-I-05-21A, July 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



        SENSITIVE BUT UNCLASSIFIED

                            TABLE OF CONTENTS
KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Constituent Posts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

     Entry-Level Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Space and Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

     Morale . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

     U.S. Government Presence in Hyderabad . . . . . . . . . . . . . . . . . . . . . . . . . . 15

     Security Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

     The United States India Fund and the Interim Fund . . . . . . . . . . . . . . . . . 17

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  21

      Political Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    21

      Economic Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         28

      Environment, Science, Technology, and Health . . . . . . . . . . . . . . . . . . . .                               31

      Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          32

      Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         44

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  53

     Rightsizing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   54

     Facilities Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             55

     Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             58

     Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           59

     Locally Employed Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              61

     International Cooperative Administrative Support Services . . . . . . . . . . .                                     61

     Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              62

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

INFORMATION MANAGEMENT AND INFORMATION SYSTEMS SECURITY . . 73

     Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73

     Information Systems Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 99

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 101

                    SENSITIVE BUT UNCLASSIFIED





                              KEY JUDGMENTS

•	 Embassy New Delhi and its constituent posts skillfully manage the complex
   and growing U.S-India relationship. They appropriately focus on potential
   U.S. benefits from expanding economic ties and cooperation in space, civilian
   nuclear energy, high-technology trade and missile defense. The embassy is
   committed to moving this strategic partnership forward within a nuanced
   framework that ensures India’s compliance with global nonproliferation.
•	 Managing the growth in the U.S.-India relationship without expanding the U.S.
   government’s physical facilities in India is difficult. Construction is beginning
   for a new consulate compound in Mumbai and a major addition to the
   embassy annex in New Delhi. Recent renovations to the consular facilities in
   Chennai added critical space, but more is needed. Planning continues for the
   reallocation of the space already available in Chennai and at the new com­
   pound in Mumbai, and that effort would benefit from the expertise of a
   professional space planner.
•	 If the mission in India is to address the growth in consular services systemati­
   cally, attention must be paid to consular support by all mission elements and
   the Department over the next several years. Without a creative response to
   the growth in consular services, the mission risks focusing on visa services to
   the detriment of all other issues in its mission performance plan (MPP).
•	 Despite all of the projected expansion, the U.S. government must begin
   serious planning for the opening of a new consulate in a fifth Indian city very
   soon. OIG supports the embassy’s choice of Hyderabad for this expansion
   and believes preliminary planning must begin now.
•	 As the embassy consolidates its functions at compounds throughout India,
   the future of the American Centers is in doubt. These centers have been a
   mainstay of U.S. public diplomacy in India for decades. OIG heard compel­
   ling arguments in Washington and New Delhi that call for the center in New
   Delhi to be housed in a leased facility accessible to Indian users. OIG agrees
   in principle and has pressed Embassy New Delhi, in coordination with the
   Bureau of South Asian Affairs, to make the strategic case for this option.
•	 Staffing will need to grow in India. However, the MPP’s request for more
   than 30 additional positions is unrealistic. The embassy must prioritize its
   staffing requirements, focusing on shortages in (b) (2)(b) (2)(b) (2) consular
   affairs, and public diplomacy.

OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        1 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      •	 The U.S. India Fund, begun in 1987, and its related Interim Fund have
         together made nearly $15 million available to programs that have since
         expired. The embassy needs to work with the Indian government to create a
         mechanism that will effectively use these residual funds to further current
         U.S.-India priorities.
          The inspection took place in Washington, D.C., between January 3 and
      31, 2005, and in New Delhi, Calcutta, Chennai, Mumbai, Hyderabad, and
      Chandigarh, India, between February 5 and March 22, 2005. Ambassador Vincent
      Battle (team leader), William D. Cavness, Jr. (deputy team leader), William Belcher,
      Brian Blood, James Davies, Leslie Gerson, Richard Jones, Eric Klanderman,
      Norbert Krieg, Andrea Leopold, Brian Mohler, Jennifer Noisette, Jim Peters, and
      Robert Torres conducted the inspection.




2 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                        CONTEXT

                                                       Few relationships are more
                                                   important to the United States than
                                                   that with India, and some see U.S.­
                                                   India relations as stronger today
                                                   than at any time since India became
                                                   independent in 1947. This reflects
                                                   a recent fundamental transforma­
                                                   tion in the relationship that appears
                                                   to have weathered the storm of
                                                   India’s change of government in
                                                   early 2004. What had been a muted
                                                   pantomime of diffidence and
                                                   suspicion has become a lively
                                                   dialogue of converging interests
and growing confidence. The robust bilateral relationship was illustrated by Secre­
tary of State Rice’s successful visit to New Delhi during the inspection. She will be
followed later this year by the Secretaries of the Treasury, Transportation, and
Energy, and a Presidential visit is possible late in 2005. The challenge for Embassy
New Delhi and its three constituent posts is to nurture the relationship that has
emerged and shape what the Ambassador characterizes as a “crucial partnership”
for the Twenty-first Century. In former Secretary Powell’s words, “A thriving,
peaceful, democratic India is taking its place on the world stage, and the United
States looks forward to acting in close partnership with her.”

    With its educated, dynamic population, growing economic power, and strong
leadership, India is emerging as a confident and assertive global and regional force
that increasingly perceives the United States as a partner in securing peace and
stability in South Asia. The transformation in U.S.-India relations, and the expand­
ing influence of the United States in the area, enabled the United States to effec­
tively defuse the Kashmir crisis between India and Pakistan, which had brought the
two countries close to war in 2002, and to engage both countries in support of their
efforts at rapprochement. The United States also sees some value and risk in
enhancing India’s ability to manage crises affecting its regional partners: Nepal, Sri
Lanka, Bangladesh, and Afghanistan. Of immense significance is India’s commit­



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005            3 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      ment to cooperate with the United States in the war on terrorism. This commit­
      ment has led to greater diplomatic coordination and intelligence sharing between
      the two governments and a quantum leap in law enforcement cooperation. The
      United States and India have also made real progress in strengthening military-to­
      military ties via joint exercises and greater interoperability.

           Although India began moving away from economic protectionism over a decade
      ago, it still must work to reduce corruption, fix inadequate infrastructure, stream­
      line its bureaucracy, protect intellectual property, and remove tariff and non-tariff
      barriers. Nonetheless, India has advanced steadily toward economic liberalization,
      sustainable growth, and integration into the world’s economy. It is now the third-
      largest economy in Asia, and U.S. economic engagement, through the bilateral
      Economic Dialogue, aims at continued improvement in India’s economic gover­
      nance. The U.S. development focus, as reflected by a hefty aid program, is on the
      intractable challenges of fostering growth, eradicating poverty, protecting the
      environment, improving health conditions, curbing drug transshipments, and
      eliminating trafficking in persons. The United States is also working to enhance its
      economic and commercial ties with India. Today, the United States is India’s most
      important trading and investment partner, but much remains to be done to clear
      away legacy trade disputes, increase U.S. investments, and provide better market
      access for competitive U.S. goods and services. Much of the excitement focuses on
      India’s successful and multi-faceted information technology sector, which has big-
      name U.S. corporate participation at virtually every level. U.S. interest in the
      services sector has also been high, with steep growth in the number of U.S. finan­
      cial and insurance companies in India.

          Sustaining Indian cooperation for nuclear non-proliferation and export controls
      remains a key part of the U.S.-India relationship. The 2004 agreement on promot­
      ing high technology commerce between the United States and India - part of the
      Next Steps for Strategic Partnership (NSSP) policy initiative - is testament to
      progress toward these competing goals, but the way forward is still challenging. A
      coordinative challenge for the embassy is to effectively bring together success in
      non-proliferation and expanded collaboration in civilian nuclear energy, commercial
      space programs, high technology trade, and missile defense.

          People-to-people links between the two countries have remained strong, even
      during the low ebb in bilateral relations in the late 1990s. The robust flow of new
      immigrants from India to the United States continues, and India is now the United
      States’ second biggest source of legal immigration and naturalization. Two million
      Americans trace their backgrounds to India, and nearly 80,000 Indians are studying
      in the United States. Many Indian immigrants in the United States have achieved


4 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




success and wealth, and the group’s political clout is growing. Not surprisingly, the
impact of immigration has been felt in visa work, and consular workloads have
skyrocketed. Taken together, the four consular posts in India are among the largest
U.S. consular operations worldwide.

    The rapid growth in the U.S.-India relationship has put immense pressure on
existing embassy resources. The work force at the embassy and its constituent
posts is large, with 337 Americans and nearly 1,500 locally employed staff (LES).
Of these, the Department alone has in just the past two years added 30 new, U.S.
direct-hire American positions, mostly in the consular area, and 41 LES positions.
Other agencies at post are also clamoring for increases, as reflected in the MPP.
Despite an active plan to renovate existing facilities and build new ones, the
mission’s physical plants in New Delhi, Mumbai, and Chennai are under great strain
from increased workloads. Already, the embassy’s MPP seeks authorization for
opening an American presence post (APP) outside of the four cities where the
Department now has offices. Given the central importance of the U.S.-India
relationship, the pressure for expansion will surely intensify.

    Embassy New Delhi, in conjunction with the Bureau of South Asian Affairs,
also oversees the relationship with the Kingdom of Bhutan even though the United
States and Bhutan have not yet established formal diplomatic relations. Although
no one at the embassy is accredited to Bhutan, the Ambassador and other staff
members have visited the country. Internal political reforms in the kingdom have
begun. The United States continues to focus much of its Bhutan-related efforts on
the return of more than 100,000 Bhutanese refugees, many of ethnic Nepalese
origin, who fled Bhutan in the face of the monarchy’s decade-old campaign to
preserve the Bhutanese character of the kingdom.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         5 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





6 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                      EXECUTIVE DIRECTION

    The leadership team at Embassy New Delhi is strong. OIG was repeatedly told
by embassy employees that the Ambassador and the deputy chief of mission
(DCM) make up the strongest front office team these employees have ever worked
with during foreign affairs careers. Everything OIG saw during its stay in New
Delhi substantiates this assessment. The Ambassador, a non-career professional
who has broad experience in international economic policy, finance, and manage­
ment gained in the United States and abroad, came to New Delhi 14 months ago
determined to craft a strong team that would shake off some of the malaise of
earlier days. The DCM, a career diplomat with Washington savvy, analytical skills,
and strong qualities of leadership preceded the Ambassador by several months and
was on-message from the outset. The two intentionally and successfully created an
open, collegial, empowering operating environment that maximizes the talents and
know-how of senior staff and reaches out to the entire official community.

    The Ambassador’s background in international economic policy and finance has
naturally propelled him toward a dynamic role in boosting economic relations
between the United States and India. This intense focus is appropriate and timely,
given the opportunities for strengthening economic ties with India now that its
economy is booming and liberalizing. There remain some legacy trade disputes,
particularly in the energy sector, that cause some irritation and the ambassador
continues to seek solutions to these. At the same time, he has turned his immense
energy and expertise to an economic dialogue with India aimed at maximizing the
benefits available to U.S. corporations from doing business there. The executive
office’s mobilization of the mission’s interagency economic team around this effort
is exemplary. Its efforts include advocating and supporting major structural reform,
expanding access to the defense market, boosting U.S. exports from small- and
medium-sized enterprises, and protecting such mainstays as U.S. almond exports
from bogus non-scientific trade barriers. The Ambassador and DCM provide
comprehensive and rigorous oversight of these activities.

    Also central to the executive office’s agenda is the strategic partnership that
frames the Administration’s approach to India. The next steps in this strategic
partnership follow a nuanced and phased process involving well-defined, reciprocal
commitments. Getting there, however, is hard work. In the words of one Washing­
ton official, crafting the strategic partnership with India has exposed a “policy fault


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005           7 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




      line” within the U.S. government. On one side of the fault line are those who see
      India as a scientific powerhouse with the potential for cooperation in the areas of
      civilian aerospace, civilian use of nuclear energy, high-technology trade, and
      missile defense. On the other side are those who argue that India must adhere
      strictly to the global non-proliferation regime and impose effective export controls
      on sensitive technologies before moving forward. The Ambassador and the em­
      bassy team have demonstrated a deft agility in maneuvering along this fault line.
      Communications with the Washington protagonists are uneven, however, and the
      embassy sometimes finds itself alone and out in front in advocating for this strate­
      gic partnership. At the same time, the embassy’s message to India is clear: India
      must do its part to ensure that export controls and safeguards are in place to elimi­
      nate the risk of nuclear proliferation. Here again, the executive office has mobi­
      lized an impressive interagency approach via the high technology working group.
      OIG attended a regular meeting of this group, which is chaired by the DCM, and
      found compelling expertise, objectivity, flow of information, and collegiality.

           The DCM has experience in policy-making within the Department, a keen
      analytical mind, an engaging manner, and a genuine concern for employees’ well­
      being and inclusion. He maneuvers as effectively with Indian officials as with the
      enormous American and Indian work force, he is very good at his job, and has the
      respect and admiration of all his colleagues. OIG observed his skill at chairing
      staff meetings and also found his knowledge of even highly technical issues to be
      prodigious. This ease he exhibits with the substance of a meeting allows him to
      steer the discussions toward policy relevance, coordination of effort across agen­
      cies, and the appropriate involvement of the executive office. He has embraced
      the need to work with the new International Cooperative Administrative Support
      Services (ICASS) chairman to jumpstart the ICASS process, and has authored an
      effective professional development program for entry-level personnel. The bottom
      line: The embassy benefits from his strong performance.



      CONSTITUENT POSTS
          Relations between Embassy New Delhi and the constituent posts are less
      successful than within the country team. Personnel from the constituent posts are
      linked via digital video conferencing (DVC) to allow their active participation with
      the country team several times per week; they also participate in other, more
      focused meetings as the need arises. OIG participated in a number of these DVC
      sessions and found the inclusion of personnel from constituent posts is admirable
      and helps keep lines of communication open. The timing of the weekly all-hands


8 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





meeting, however, clashes with the peak hours for consular interviewing. This
reduces the chance for many entry-level officers to participate in broader mission
discussions and has contributed to their feeling a sense of distance from the main­
stream of the mission.

    There are management weaknesses at some of the constituent posts that could
benefit from stronger oversight from Embassy New Delhi. For instance, team-
building efforts are less evident in the consulates. The drive, engagement, and
vision of Embassy New Delhi’s leaders are not seen to the same degree in Mumbai
and Chennai. As currently run, each section at the constituent posts operates
through direct links to its parent section in New Delhi, a highly stove-piped struc­
ture. This works reasonably well for day-to-day operations, but often involves only
the section head, with no flow-through of information to others in the section or to
colleagues with relevant collateral interests. OIG found strong communication and
coordination between Embassy New Delhi section chiefs and the constituent posts’
sections dealing with consular affairs, public diplomacy, security, and economics.
But the executive office’s success in molding a strong team in New Delhi has not
been replicated at the constituent posts. Constituent post visits by the Ambassador
and DCM are infrequent and often focus on particular events in the consular
district that neither require nor involve stops at the consulates. Time and budget
constraints help explain this situation, but the executive office must increase its
visibility and activism among employees at constituent posts.



ENTRY-LEVEL PROGRAM
    The executive office, in conjunction with entry-level personnel, has a profes­
sional development program aimed at all first- and second-tour generalists and
specialists in New Delhi and the three constituent posts. The program is described
in detail in a May 2004 memorandum from the DCM. In the cover e-mail that
transmitted this memorandum, the DCM noted the effort to bring together in one
document all the mission programs that enhance new employees’ career growth and
development. The DCM said he was open to new ideas and would set up an entry-
level committee to ensure active participation in shaping these initiatives and
administering program activity.

    The career development program has five components: mentoring, job ex­
changes, a speaker program, public outreach, and participation in mission-wide
activities. These are some of the facets of the program:



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        9 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



          •	 The mentoring program parallels one run by the Bureau of Human
             Resources at the Department. The program is optional and is in addition
             to the social and functional sponsors provided to all new employees in
             India. Employees are generally paired with a senior officer in his or her
             cone or area of specialization.
          •	 Under the job-exchange program, employees can arrange temporary-
             duty assignments of up to a month in one of the other posts in India.
             The burden for making the arrangements falls on the officers seeking such
             an exchange, and travel costs can be an impediment. Nonetheless,
             participants have found the exchanges very beneficial.
          •	 The speaker program involves monthly guest appearances by senior
             department officials and has featured Under Secretaries, Assistant Secre­
             taries, and former Ambassadors. The program also envisions brown-bag
             sessions, where the DCM, agency or section heads, or others will hold
             informal discussions. Entry-level personnel who are at the posts away
             from the speaking venue can participate via digital video-conferencing.
          •	 As part of public outreach, entry-level personnel are encouraged to seek
             opportunities to do public speaking in India. The assistant cultural affairs
             officer is specifically designated as the coordinator for this program
             element.
          •	 Entry-level personnel are encouraged to participate in mission activities
             that are outside of their day-to-day responsibilities and are welcome to
             attend country team meetings as often as possible. An entry-level repre­
             sentative sits on all embassy functional committees. They are also en­
             couraged to work as site or control officers for high-level visitors and
             delegations, to seek out special reporting projects, and to take advantage
             of the post’s language program.

           OIG found the program to be well articulated. Entry-level activists described it
       as a work in progress that has brought some benefits to participants. Participation
       is uneven, however. Budgetary constraints have affected the ability to travel, and
       therefore, to set up exchange programs and do meaningful outreach throughout the
       consular districts. The press of work has also limited individuals’ opportunities to
       participate. Fewer specialists than generalists appear to take advantage of the
       program, and although the program is not New Delhi-centered, it is harder to keep
       entry-level personnel in the constituent posts fully engaged. Nonetheless, this
       program has the strong interest of the DCM and the principal officers and the
       enthusiasm of program beneficiaries.



10 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



SPACE AND FACILITIES
     The embassy occupies three, large government-owned facilities in New Delhi.
In the suburban diplomatic zone, a 28-acre compound contains the chancery,
Ambassador’s residence, related facilities, and the west annex, which houses the
consular section, the offices of U.S. Agency for International Development
(USAID), the health unit, and several administrative offices. A second adjacent
compound, called the enclave, houses 54 residential units; the Marine security
guard quarters; the commissary, restaurant, and recreation facilities of the Ameri­
can Community Services Association (ACSA); warehouses; utilities; and domestic
servants’ quarters. In downtown New Delhi, a 20-minute drive from the chancery,
a five-story building called the American Center, contains the Information Re­
source Center (library), most offices of the public affairs section, and the offices of
the Library of Congress, the Commercial Service (CS), the Centers for Disease
Control and Prevention, Bureau of Immigration and Customs Enforcement, and
Voice of America’s (VOA) technical monitoring office.

    The Bureau of Overseas Buildings Operations (OBO), in close consultation
with Embassy New Delhi, has a long-range facilities plan (LRFP) to accommodate
embassy growth over the next ten years. The ten-year funding plan that accompa­
nies the LRFP projects a total cost in excess of $40 million. An OBO space-
planning team, which visited Embassy New Delhi just weeks before OIG’s arrival,
drew up its plan to achieve these objectives:
    •	 Settle issues related to growth in the consular function,
    •	 Relocate all offices housed at the American Center,
    •	 Relieve overcrowding and plan for expansion,
    •	 Solve the enclave compound’s security problems related to setback and
       access control, and
    •	 Resolve fire-safety issues.
   OBO aims to resolve all issues that it can in the next three years and to plan
and budget for normal life-cycle renovations in the medium and long term.

     OBO’s visit helped resolve a number of outstanding issues, and the embassy
hopes to be able to launch the projects identified in the first phase of the plan. At
this stage, three issues particularly concern the embassy’s executive office. They
are:




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005           11 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



          •	 Relocating the Foreign Commercial Service (FCS) from the downtown
             American Center to the new facility at the west annex without diminish­
             ing the natural light available to other offices;
          •	 Developing plans for (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
             (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)  adequate new offices for
             the Foreign Agricultural Service (FAS), which will be affected by this
             construction; and
          •	 Constructing a new support annex and warehouse at the rear of the
             enclave compound, which is considered a key to the success of the LRFP
             and should be moved forward to FY 2007.
           As this ten-year project gets underway, the executive office is focused on
       having a free-standing American Center replace the existing facility. With the FCS
       decision to relocate its offices onto the embassy compound, such a center would
       embody the Ambassador’s vision of a public diplomacy venue, including an infor­
       mation resources center that is accessible to much of Indian society. This concept
       is discussed at length in the public diplomacy section of this report, but deserves
       mention here as an example of the Ambassador’s active involvement in ensuring
       that facilities planning reflects priority mission goals.

           Facilities issues are also management’s focus at the two largest constituent
       posts, Chennai and Mumbai. In Mumbai, OBO is about to begin construction of a
       new consulate building in the northern part of the city, some 45 minutes from the
       present consulate general. The offices in this government-owned building and the
       offices in the government-owned American Center in downtown Mumbai, will
       relocate to the new facility, projected for completion in 2008. Consulate officials,
       in conjunction with facilities staff, are planning the new facility to ensure that the
       space needs of all consulate sections are met. In the meantime, renovations are
       underway on the consular work area at the current government-owned building,
       and the Ambassador and consul general in Mumbai believe the U.S. government
       ought to retain this structure for future use as a diplomatic platform in south
       Mumbai. Officers at the consulate have been tasked to build a case to justify
       retaining the facility, a historic landmark property at the seaside. Militating against
       retaining it are its difficult security environment, the large investment being made
       at the new site, the costs of its long-term maintenance, and the likelihood it will
       have minimal utilization.

           In Chennai, the problem is less the available space than the way space is allo­
       cated. A recent renovation of the consular section added workspace, but still more
       is needed. The new management team in Chennai, in coordination with the consul
       general, is identifying and realigning the ample space afforded by the current


12 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




building to ensure that there is adequate workspace for all sections, including
consular. For the future, the consul general foresees building a new consulate
building on government-owned land to be bought in the southern part of Chennai
by 2010. OIG believes this target is premature. There is adequate space for
reasonable expansion at the current property, which has a long-term lease. Were
new land to be purchased, however, the move of the American Information Re­
source Center to a secure, free-standing facility would be the best alignment of U.S.
government resources in Chennai.



MORALE
    India is as hard a place to live in as it is fascinating and exotic. It is not surpris­
ing, therefore, that there are those at the embassy who love living and working in
India and those who find it a real struggle. The executive office team, including
the principal officers at constituent posts, is committed to efforts to keep morale
high. The welcome cable sent by the Ambassador to new arrivals is sincere. Fur­
thermore, the Ambassador, DCM, and principal officers try to participate often in
community events. Embassy New Delhi has an active employees’ association
American Community Services Association (ACSA) that offers an array of on-
compound services that provide some of the comforts of home. For example, the
bowling alley is a real surprise. However, the commissary run by the association
does not get high marks; employees at constituent posts complain about the meager
commissary and canteen facilities. The community liaison offices (CLO) in New
Delhi, Mumbai, and Chennai are active and provide opportunities for individuals to
explore India without too many hassles. The embassy has travel contractors on the
compound who are committed to making India accessible, although OIG heard
complaints about the travel contractor in Mumbai. The biweekly CLO newsletter,
India Ink, is comprehensive, although possibly too lengthy, and it clearly notifies the
New Delhi community of upcoming activities. In both Mumbai and Chennai, the
recreational facilities at the principal officers’ residences are available for use by all
staff members and their families. In Calcutta, all staff members live on the consu­
late compound adjacent to the offices and recreational facilities.

    A constant employee complaint is ill health arising from gastrointestinal dis­
tress, but the embassy health unit does a good job of inculcating good health
practices. (Medicine for gastrointestinal diseases is dispensed free but most em­
ployees lose time from work because of stomach ailments.) The medical officer is
trying to find funds to bring an expert from the Centers for Disease Control and
Prevention’s epidemiological intelligence unit to help better understand the link


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005               13 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       between behavior and gastrointestinal distress among expatriates. The medical care
       available to employees and eligible family members at the constituent posts is much
       less comprehensive than at the health unit in New Delhi and concerns the staff.
       The medical arrangements in Mumbai are in flux, with new, local-contract physi­
       cians getting mixed reviews.

           Housing in New Delhi is a basis for widespread complaint and low morale.
       Here again, there is a range of views. Some say it is “the worst housing I have ever
       seen.” Others say “It is the housing that keeps me sane.” Generally those living
       on-compound are satisfied, despite the construction noise and hordes of non­
       residents who have access to the compound. The predominant view of the mid-
       and entry-level personnel in off-compound housing is that the housing pool is old,
       small, and ill maintained. Both the General Services Office and the facilities
       maintenance office come in for heavy criticism because of the ineffectiveness of
       the work of repair crews, which must repeatedly return to fix the same problem.
       Many employees remember with annoyance their lengthy stays on arrival in tempo­
       rary quarters, stays that sometimes stretched into months. By and large, employees
       at constituent posts have satisfactory housing, and move to permanent housing
       more quickly than employees in the capital.

             An additional employee concern is the environmental pollution that character­
       izes Indian urban centers. Air pollution is particularly bad in the summer. There is
       little the embassy can do about this issue in the short term, although USAID is
       actively involved with India in upgrading environmental protections.

            The tours of duty (TOD) and post allowances for posts in India vary for
       reasons that are neither clear nor compelling. New Delhi and Chennai have post
       differentials of 20 percent, with three-year TODs involving two rest and recupera­
       tion (R&R) leaves. Mumbai and Calcutta are 25 percent differential posts, but
       Mumbai has three-year TODs involving two R&Rs and Calcutta has two-year
       TODs with one R&R. There, a third year is rewarded by a service-needs differen­
       tial of an additional 15 percent. The large number of entry-level personnel in all
       posts in India means that many employees already have two-year TODs. Both
       Chennai and Mumbai have asked the Department to amend the TOD to two years,
       with the possibility for third year extensions, but no action has occurred. OIG
       agrees. Shorter TODs are warranted, and standardization across the Indian posts
       makes sense.




14 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 1: Embassy New Delhi, in coordination with the Bureau
   of Human Resources and the Bureau of Administration, should develop, and
   the Department should implement, tour of duty and allowances policies that
   rationalize the tours of duty and allowances across all four posts, reducing the
   standard tour of duty in India to two years with one rest and recuperation
   break. (Action: Embassy New Delhi, in coordination with M/DGHR and A)




U.S. GOVERNMENT PRESENCE IN HYDERABAD
     In its FY 2006 MPP, Embassy New Delhi asked for the creation of an Ameri­
can presence post (APP) in Hyderabad (in the Chennai consular district). As
proposed, one American public diplomacy officer and one LES would focus on
Muslim outreach, provide limited American citizens services (ACS), and boost U.S.
exports. OIG discussed the Hyderabad proposal with representatives of Washing­
ton agencies and with representatives of Embassy New Delhi and Consulate
General Chennai. OIG also visited Hyderabad. If established, this would be the
first APP in India. (There are APPs in France, Egypt, and Canada.)

    India’s sixth largest city, Hyderabad has a population of nearly 6 million and is
the capital of Andhra Pradesh state, one of the most economically progressive
states in India. Hyderabad, like Bangalore, has become a center for India’s boom­
ing information technology (IT) industry. The city is also the legal, generic-drug
manufacturing center of the world, and there are major biotech and pharmaceutical
research facilities locally. As a result of the IT, commercial, and research activity,
Hyderabad is home to a growing number of American companies, such as
Microsoft, and hosts a private international school catering to expatriates.

   The United States has had a long and favorable connection with Hyderabad.
For decades, one of the largest U.S. Information Services (USIS) libraries, the
American Studies Resource Center, operated at a local university. However, U.S.
support ended in 1995, and there is now only a limited U.S. government presence in
Hyderabad: FCS has an office staffed by an LES in leased commercial quarters,
and the Centers for Disease Control and Prevention plans to set up an office with
American and local staff to monitor HIV/AIDS developments in central India.
Hyderabad is also home to a strong, traditional Muslim community that comprises
more than one third of its population.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005          15 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           Embassy New Delhi and Consulate General Chennai justify the APP proposal
       by arguing that the current practice of periodic visits from officers stationed hun­
       dreds of miles away in Chennai makes it difficult to serve the growing number of
       American high-tech companies in Hyderabad. Furthermore, the city can only be
       quickly reached by air; congested highways and the distance between Hyderabad
       and Chennai make car travel impractical. A growing number of high-level U.S.
       officials, including President Clinton in 2000, have visited Hyderabad. This should
       increase as Hyderabad’s air links with the world expand, due to implementation of
       the Open Skies Agreement. A world-class, international airport is now under
       construction in Hyderabad and will open in 2008. Consulate General Chennai
       reports that residents of Andhra Pradesh state, including Hyderabad, account for
       35 percent of the consulate general’s heavy and growing nonimmigrant visa (NIV)
       workload. This workload includes students, employees of U.S. companies in
       Hyderabad traveling on business or training, and relatives of the nearly two million
       Indian-Americans, many of whom emigrated from central India. There is also
       considerable visa fraud in this part of India.

            Bangalore, west of Chennai, has been suggested as a site for an official U.S.
       presence in south India. Like Hyderabad, it is attracting considerable U.S. commer­
       cial interest. There is an FCS post in Bangalore staffed by an LES. Although
       Bangalore has a slightly larger population than Hyderabad, U.S. interests there can
       be adequately served by the Consulate General in Chennai, which is only a few
       hours away by recently improved highways.

           In light of the need for expanded visa processing facilities, the heavy future U.S.
       involvement in India’s IT and high technology industries, and the desirability that
       public diplomacy efforts reach a sizable influential Muslim population, OIG be­
       lieves establishing an APP in Hyderabad would not be enough and that the Depart­
       ment should in the near future establish a full-service consulate there instead.


          Recommendation 2: Embassy New Delhi, in coordination with the Bureau
          of South Asian Affairs (SA), should undertake a feasibility study for establish­
          ing a consulate in Hyderabad, exploring fully the major resource implications,
          with a target date for establishing such a consulate of no later than 2008.
          (Action: Embassy New Delhi, in coordination with SA)




16 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



SECURITY MANAGEMENT
   Embassy New Delhi’s mission security program is strong, effective, and well
managed. The chief of mission, DCM, and the constituent posts’ principal officers
provide sound, active oversight of their security programs. (b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)        This and other issues dealing
with the mission’s security programs can be found in the classified OIG security
report that is being issued in conjunction with this report.



THE UNITED STATES INDIA FUND AND THE INTERIM FUND
    The U.S. and Indian governments jointly established the United States India
Fund for Educational, Cultural and Scientific Cooperation (USIF) in 1987 pursuant
to the U.S.-India Science and Technology Agreement. The fund was to finance
cooperative projects in education, culture, science, and agricultural research and
technology over the following ten years. Congress funded the future USIF in 1984
with approximately $110 million in non-convertible Indian rupees derived from
Indian government payments in the 1950s and 1960s for grain provided by the U.S.
Department of Agriculture’s P.L. 480 program. Money was allocated to projects
agreed to jointly by the two governments, and the money that was obligated but not
liquidated prior to the termination of the fund is still being spent.

    Prior to 1987, the $110 million principal and accrued interest went into an
Interim Fund. In 1987, on creation of the USIF, only the principal amount moved
to USIF. Accumulated interest and the substantial amount of compounded interest
earned every year since 1987 on the principal went into the Interim Fund. The U.S.
government maintains the two accounts separately, based on opinions from the
Legal Advisor’s Office that, whereas USIF monies could be spent only on jointly
approved projects, spending from the Interim Fund did not require Indian govern­
ment approval.

    In 1997 the two parties extended USIF for one year and bilateral discussions
began on what to do with the remaining USIF and Interim Fund money. During
President Clinton’s visit to India in 2000, the two governments established the
Indo-U.S. Science and Technology Forum (the Forum) with an endowment of
nearly 320 million rupees (over $7 million) from the Interim Fund. The Forum’s




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                 17 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       operating budget is drawn from income from the endowment plus a matching
       contribution from the government of India. Embassy New Delhi is not directly
       involved in the administration of the Forum, although the science counselor
       participates actively on behalf of the United States. A governing body composed
       of seven members from India and seven from the United States runs the Forum.

           According to policy documents, the Bureau of Oceans, International Environ­
       ment and Scientific Affairs (OES) administers the USIF and the Interim Fund. The
       Secretary of State delegated the authority to approve allocations from the funds to
       OES and what was then the U.S. Information Agency. Embassy New Delhi’s
       financial management officer is responsible for the accounting. There is an alloca­
       tion in the Interim Fund for embassy administrative expenses for accounting and in
       the USIF for administrative expenses of the embassy’s science office.

           At the Ambassador’s request prior to the OIG team’s arrival, the embassy’s
       financial management officer conducted a comprehensive study of the USIF and
       the Interim Fund. The study shows that the USIF has ten U.S. government agencies
       with programs still active and the Interim Fund has six U.S. government agencies
       with programs still active and has outstanding funding obligations of approximately
       $5.9 million. More surprisingly, there is approximately $3.4 million in the USIF
       accounts from expired programs and $11.2 million in the Interim Fund from expired
       programs and unobligated interest. This nearly $15 million represents a valuable
       resource for furthering U.S.-Indian relations and should not sit idle.

           USIF, the Interim Fund, and the projects they support have now exceeded their
       intended life by eight years. Most of the remaining active projects are set up to run
       indefinitely. The Washington-based agencies that operate these projects should be
       asked to review and complete these projects within a reasonable period of time.
       Following completion of the projects, any remaining obligated monies should be
       consolidated into the appropriate fund.


          Recommendation 3: Embassy New Delhi, in coordination with the Bureau
          of Oceans, International Environment and Scientific Affairs and the Office
          of the Legal Adviser, should establish a sunset date for active U.S. India Fund
          and Interim Fund projects that still have obligated but undisbursed balances
          and inform the relevant U.S. government agencies of this action. (Action:
          Embassy New Delhi, in coordination with L and OES)


           A number of U.S. government agencies have USIF money obligated to projects
       that have expired. This money should be returned to the fund from which it
       originated.

18 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Recommendation 4: Embassy New Delhi, in coordination with the Bureau
   of Oceans, International Environment and Scientific Affairs and the Office
   of the Legal Adviser, should notify U.S. government agencies that expired
   obligations in projects they managed will be withdrawn and returned to the
   appropriate fund. (Action: Embassy New Delhi, in coordination with L and
   OES)


    Available documentation indicates that any money remaining in the USIF after
the termination of the fund can be disposed of in a manner determined by the
governments of the United States and India. The same documentation says that a
joint determination is not required for the Interim Fund. Aside from the endow­
ment of the Forum, there was no attention to the disposition of the USIF and
Interim Fund monies when the fund officially lapsed in 1998. The nearly $15
million remaining in the two funds should now be used to further U.S.-Indian
relations, bearing in mind the 1984 and subsequent science and technology agree­
ments. The mechanism for overseeing future use of these funds should involve
minimum accounting and management oversight, if any, by a U.S. government
agency. The endowment concept used for the Forum could be a model for setting
up a successor organization.


   Recommendation 5: Embassy New Delhi, in coordination with the Bureau
   of Oceans, International Environment and Scientific Affairs, the Office of
   the Legal Adviser, and other appropriate bureaus, should seek and reach
   agreement with the government of India on the creation of one or more new
   programs to be endowed with the funds remaining in the United States India
   Fund and the Interim Fund. (Action: Embassy New Delhi, in coordination
   with OES and L)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005    19 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





20 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                      POLICY AND PROGRAM
                        IMPLEMENTATION



POLITICAL AFFAIRS
     In September 2004, President Bush said relations with India have never been as
close as they are at present. This contrasts with relations during the last OIG
management inspection, when U.S.-India ties were at a low point following India’s
1998 nuclear tests. U.S. sanctions, mutual distrust and estrangement then domi­
nated our ties. But new realities and unforeseen events have put relations back on
track in recent years. India’s growing importance in the global knowledge-based
economy has brought it closer to the United States and its strategic importance to
regional stability has become clear. India remains the world’s largest democracy
and has a young, dynamic population. American and Indian leaders seek to build a
new partnership based on a shared commitment to freedom, prosperity, and secu­
rity. The United States lifted its sanctions on India in 2001 and relations further
improved after the terrorist attacks of September 11, 2001, in which 250 Indians
died. India provides unconditional help to the United States in the global war on
terrorism, allows the Navy to use its ports for rest and refueling, and permits Air
Force over-flights. This collaboration has resulted in a positive military relation­
ship, which now includes joint exercises and development of joint doctrines and
procedures. The United States is emerging as a major defense supplier to India.
When India and Pakistan neared war in 2002, Washington’s new relationships
across South Asia helped defuse the crisis.

     The centerpiece of the bilateral relationship is the Next Steps in Strategic
Partnership (NSSP) program, announced by President Bush and Prime Minister
Vajpayyee in January 2004. The mission’s political section plays the major role in
the mission in fostering this landmark initiative. Under the NSSP, the two coun­
tries expanded cooperation in civilian nuclear activities, civilian space programs,
and high-technology trade, and to expand a dialogue on missile defense. The NSSP
is a series of reciprocal steps that build on each other, including engaging on
nuclear regulatory and safety issues and missile defense, cooperating in the peaceful



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         21 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       uses of space technology, and creating the appropriate environment for high
       technology commerce. India and the United States also cooperate on regional
       issues, including Nepal, Afghanistan and Sri Lanka.

            Diplomatic activity resulting from the burgeoning relationship has increased the
       need for Embassy New Delhi to provide political spot reporting and analysis, which
       Washington agencies find impressive in quality, comprehensiveness, and volume.
       Headed by a dynamic and energetic FS-01 political minister counselor with strong
       regional experience, the extremely busy and talented political section has 13 offic­
       ers, two office management specialists (OMS) and four LES. An FS-01 deputy
       counselor assists the minister counselor. Under their leadership, the section is
       operationally effective and maintains excellent and collaborative relations with the
       rest of the embassy. The minister counselor meets daily with post leadership. His
       collegial work style has earned him widespread praise from colleagues. He and his
       deputy provide frequent and thoughtful guidance and feedback to their hard­
       working staff, which includes several entry-level personnel (ELP).

            The minister counselor keeps in touch with the constituent posts through e-
       mails and phone calls and hosted a countrywide reporting officers’ meeting in 2004.
       OIG believes this should be an annual meeting. One political officer serves as
       liaison with each constituent post to ensure good communications and to make
       sure that the consulates operate within mission priorities. The minister counselor
       serves as reviewing officer for political officers in the constituent posts.

           The political section has superb access to Indian policymakers, government and
       opposition political leaders, private analysts, journalists, and other excellent sources
       of information. The quality of the section’s dedicated and experienced LES staff
       is high. Although the LES’ offices are located in a distant part of the large chan­
       cery, there is constant communications with officers. Reporting officers receive
       adequate preparation prior to arrival. Although most embassy exchanges with
       Indian contacts are in English, one officer covering internal politics has strong
       Hindi language skills. Officers spend limited representational funds effectively and
       internal trips by section officers maximize the impact of tight travel funds; both are
       tied to the MPP. The political section makes a special effort to have its ELP
       perform temporary duty (TDY) at the constituent posts and visit other embassies in
       the region. As funds and time allow, the section sends officers on short TDYs to
       Pakistan as part of the New Delhi-Islamabad exchange program.

          The current staffing totals and grade levels in the political section appear
       appropriate for the workload, although the post believes more officers may be
       needed as the bilateral relationship expands or to allow for surge capacity. The


22 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




section received an ELP position in the summer of 2004 to address a long-standing
gap in covering labor issues adequately. The labor officer monitors the INDUS
(Indo-U.S.) project to eliminate child labor in ten hazardous industries in India.
This is the largest U.S.-funded child-labor eradication project in the world, with
each government providing $20 million for education, rehabilitation, and awareness
programs. A visit to India by the Deputy Secretary of Labor during the inspection
underscored the high importance of this program. During the inspection, illness
cut short the officer’s assignment, and it is unclear whether a permanent replace­
ment will be named. An ELP position was added in 2004 to bolster human rights
and religious freedom reporting. As the inspection ended, the Department told the
embassy that the political section could lose four positions by 2006, due to possible
reprogramming to Embassy Baghdad or other posts. The embassy plans to appeal
this tentative decision. OIG believes a reduction in political section staffing is ill
advised in light of the growing U.S.-India relationship.

    The political section is involved in advocacy on behalf of U.S. businesses in
India. Political officers provide extensive input into reports distributed by the
Department of Commerce to the U.S. business community, including the Country
Commercial Guide, and political officers often brief business visitors about rel­
evant political developments.

     The political section participated actively in preparation of the MPP, which
fully reflects the post’s political objectives. Section officers drafted the introduc­
tion and other important MPP chapters.

     The political section remains prolific, despite staffing gaps and its need to
support a large number of congressional delegations and senior U.S. government
visitors, including Secretaries Powell and Rice and Deputy Secretary Armitage. For
instance, from early January to March 2005, political section officers drafted over
130 cables, official-informal messages, and e-mails on major topics. These topics
included Jammu and Kashmir, the evolution of India’s ties with Pakistan, including
the significance of confidence-building measures; India’s relations with neighbors
China, Nepal and Bhutan; national and regional politics, human rights and religious
freedom, developments in India’s large Muslim community, political-military and
non-proliferation issues, labor, and tactical suggestions on next steps in the NSSP
process. The political section’s high-quality output is balanced, extremely timely,
and provides solid analysis based on broad sourcing. The well-written messages
contain excellent summaries and insightful post comments to highlight salient
points, context, and policy relevance for busy Washington consumers. Whenever
possible, the cables contain relevant biographic information. OIG noted that the



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005          23 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       high-caliber reporting effort and the control officer responsibilities sometimes cause
       officers to put in overtime when the section is short-handed due to staffing gaps,
       illness, or leave.

       Defense Attaché Office and the Indian Military

            The Defense attaché office has six officers. India’s swift response to the Sep­
       tember 11, 2001, terrorist attacks and its unconditional support for the global war
       on terrorism galvanized bilateral military relations, which had already been improv­
       ing following India’s endorsement of the Bush Administration’s missile defense
       program in May 2001. The removal of sanctions against India in late September
       2001 helped both countries identify mutually overlapping security goals and gave a
       new impetus to military ties. Today military-to-military relations have reached a
       new high, with all major services engaging in joint exercises and programs. Expan­
       sion of military ties aims to develop capabilities and confidence, jointly address
       security issues (such as protecting energy supplies and sea-lanes), conduct peace­
       keeping, combat terrorism, and promote interoperable procedures, communica­
       tions, and military doctrines. These policies are encouraged by a growing number
       of bilateral exercises, seminars, personnel exchanges, high-level visits, unit and ship
       visits as well as military technology sales. Several U.S. military officers are students
       or instructors at Indian universities or military schools. The growing level of the
       bilateral military partnership was manifested by the joint cooperative efforts of the
       armed forces of both nations during the aftermath of the December 2004 tsunami.

       Office of Defense Cooperation and Military Sales

            India’s military wants to buy U.S. equipment through the foreign military sales
       process, and the United States is willing to sell state-of-the-art equipment to India.
       Such transactions are handled by the Office of Defense Cooperation (ODC), which
       has four officers (growing to six officers in the summer of 2005). With the lifting
       of sanctions, only major defense items valued over $14 million require Congres­
       sional notice. This puts India in the same category as key U.S. allies, such as Japan
       and South Korea. India has purchased counter-battery radars and engines for light
       combat aircraft and will buy equipment to enhance the counter-terrorism capabili­
       ties of its special forces. It may also buy chemical and biological protection equip­
       ment. The United States has expressed willingness to sell naval frigates and heli­
       copters to India and may eventually sell a missile defense system and F-16 fighters.
       Negotiations are underway on the sale of naval reconnaissance planes. Major U.S.
       defense participation in the February 2005 Aero India air show in Bangalore sig­
       naled the growing U.S. interest in defense equipment sales in India. The ODC


24 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



manages a $1 million International Military Education Training program, under
which Indian military officers study in the United States.

    The Defense attaché office and ODC say they have outstanding support from
the embassy front office and maintain close collaborative relations with several
embassy sections, notably the political section, which includes a political-military
officer.

Counterterrorism

     U.S.-India cooperation in combating terrorism greatly improved after the terror­
ist attacks of September 11, 2001. The United States helped extradite underworld
gangster Aftab Ansari from the United Arab Emirates to India in February 2002.
Based in Dubai, Ansari masterminded the attack on the American Center in
Calcutta a month earlier. Four policemen died in the attack. U.S.-Indian
counterterrorism cooperation also involved India’s most wanted terrorist, Dawood
Ibrahim. India believes that Ibrahim organized bomb blasts in Mumbai in 1993 that
killed more than 250. In 2003, the U.S. Treasury named Ibrahim a “global terrorist”
who is suspected of financing outlawed militant groups responsible for attacks in
India. The Treasury action froze Ibrahim’s U.S. assets. In 1999, the Federal Bureau
of Investigation (FBI) joined the investigation of a highjacked Indian Airlines plane
because a U.S. citizen was a passenger on the flight. The FBI office in New Delhi
not only supported the Indian probe into the highjacking and its perpetrators, but
also conducted an independent investigation.

    The United States and India formed the Counter Terrorism Joint Working
Group (CTJWG) in 2000 as the policy body for counterterrorism cooperation. The
group includes senior officials from India’s Ministries of External Affairs, Home
Affairs, Finance, and Defense and the U.S. Departments of State and Justice, the
FBI, and the Pacific Command. The CTJWG last met in September 2004. CTJWG
meetings take place at least annually, although its sub-groups such as that on cyber-
security meet more often. The CTJWG conducts a dialogue on homeland and
internal security topics, including terror-financing networks, forensic sciences,
transportation security, and border control, thus helping authorities track suspected
terrorists. The Department of Homeland Security’s Bureau of Immigration and
Customs Enforcement (ICE) and Indian Customs plan to sign a customs mutual-
assistance treaty to formalize their cooperation on customs and border issues.

    The United States and India are working on a mutual legal-assistance treaty to
help the CTJWG tackle terrorism and criminal activities. Both countries exchange
information, including assessments of international terror incidents, terrorist


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         25 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       groups, and strategies. To strengthen intelligence and investigative cooperation, the
       Department’s Bureau of Diplomatic Security (DS) sponsors training to improve the
       capabilities of Indian law enforcement officials. The United States helped create a
       cyber-security forum to improve information security and answer the challenges of
       cyber-terrorism. The FBI works closely with an Indian counterpart, the Central
       Bureau of Investigation, to track cyber-crime, and FBI specialists have led work­
       shops for Central Bureau of Investigation officers.

           Two political officers do counterterrorism reporting, and the deputy political
       counselor follows terrorist trends in Jammu and Kashmir closely. The political
       section works with the Terrorist Finance Coordination Officer in the economic
       section and other mission offices with counterterrorism responsibilities.

       Narcotics Control, Law Enforcement and
       Trafficking in Persons

           The major U.S. law enforcement objectives in India Cooperation in counter-
       narcotics, transnational crime, and trafficking in persons (TIP) and are clearly
       reflected in the MPP. Drug trafficking and narco-terrorism are areas of concern,
       since India is sandwiched between the heroin-producing regions of the Golden
       Crescent in the west (Pakistan and Afghanistan) and the Golden Triangle in the
       east (Burma and Thailand).

            The government of India cooperates closely with U.S. law enforcement agencies
       at Embassy New Delhi, including the Drug Enforcement Administration, the
       Department of Homeland Security’s ICE and its Citizenship and Immigration
       Services, the FBI, and the Department’s own Bureau of International Narcotics
       and Law Enforcement Affairs (INL). Law enforcement activities in India are
       coordinated through monthly meetings of the law enforcement working group
       (LEWG), which is organized and coordinated by the INL unit director. The DCM-
       chaired LEWG is attended by representatives from the Drug Enforcement Admin­
       istration, FBI, ICE, Citizenship and Immigration Services, INL, USAID, the politi­
       cal and economic sections, and the regional security officer (RSO), and relations
       among its members are excellent. There are also frequent informal consultations
       among the law enforcement agencies, the INL unit, the embassy front office and
       the constituent posts. INL also organizes and coordinates a smaller, ad hoc TIP
       LEWG, which meets as needed. There is an economic crimes LEWG instituted by
       the economic section.

          The 2001 terrorist attacks spurred U.S. and Indian law enforcement agencies
       toward a close working relationship. During the last year, the most positive and


26 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




dramatic improvement in bilateral law enforcement cooperation has been on TIP
issues, increased cooperation on ICE’s Container Security Initiative (CSI),
counternarcotics, and enhanced coordination between the FBI and its Indian
counterparts.

    A vigorous FS-2 officer with INL policy and program management experience
directs the INL unit, an independent section at Embassy New Delhi. The unit
director position is funded by INL. The incumbent is a member of the country
team and reports to the DCM. Assisted by two eligible family member (EFM)
program assistants and an LES, she prepares voluminous and solidly sourced
reporting on counternarcotics and TIP issues, including information from other
embassy sections and the constituent posts.

      The extremely busy INL office has major program management responsibilities.
It monitors U.S. government funding of vehicles, communications equipment, and
computers for India’s Central Bureau of Narcotics. The Indian agency regulates
illicit opium growth and processing and the import and export of precursor chemi­
cals and supports the counternarcotics programs of Indian Customs. These pro­
grams are implemented through Letters of Agreement (LOAs) with India’s Ministry
of Finance. A 2003 LOA amendment provides $2.18 million for projects to
strengthen the infrastructures of the Narcotics Control Board (NCB), the Central
Bureau of Narcotics, and Indian Customs. The Drug Enforcement Administration
representative at Embassy New Delhi said that the INL programs are already
paying off in terms of more effective Indian drug investigations and greater coop­
eration with the United States.

    In 2003, the Department of State reported that India has become the transit
point and final destination for thousands of trafficked persons who are sold for
exploitation, bonded labor, and indentured servitude and that India has become a
prime destination for sex tourism. When the Department accorded a higher priority
to TIP issues, the unit director persuaded the department’s Office to Monitor and
Combat Trafficking in Persons (G/TIP) to fund a full-time program manager
position to handle this labor-intensive issue. An EFM manager was hired in late
2004. Although TIP work had not been envisioned when INL established the New
Delhi unit in 2002, the incumbent and her staff have managed the added portfolio
well. During the past five years, the U.S. government has provided $1.8 million to
non-governmental organizations (NGOs) engaged in anti-trafficking throughout
India. The funding aimed to strengthen the country’s ability to prevent trafficking,
investigate cases and arrests, prosecute and convict traffickers, and rehabilitate
victims. These programs are administered through memoranda of understanding



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        27 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




       (MOUs) with the United Nations Development Fund for Women and the United
       Nations Office on Drugs and Crime. With strong support from the Ambassador
       and DCM and the threat of U.S. sanctions, the INL unit is helping persuade the
       government of India to take more effective action on TIP issues. While India is
       making some progress on TIP issues at the political level, it remains a TIP Tier II
       Watch List country (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)    Moving India to Tier III could trigger
       sanctions, including U.S. opposition to Indian projects seeking funds from interna­
       tional financial institutions.

           One concern is that the unit director told OIG that INL fails to provide timely
       and consistent guidance on budget issues, which hampers office planning. Also,
       INL and G/TIP fund and operate some anti-trafficking projects with NGOs in
       India without telling the New Delhi INL unit, thus risking coordination problems.
       OIG believes that INL programming in India and possible future TIP sanctions
       against India would require the continuation of a full-time officer to handle such
       issues after the incumbent leaves post in the summer of 2005. OIG learned during
       the inspection that INL intends to replace the incumbent.



       ECONOMIC AFFAIRS
           The minister counselor for economic affairs ably leads a team of experienced
       officers and LES, and the section’s efforts are well coordinated with those of other
       sections in the embassy. Reporting is informed and influential, and the advocacy
       of U.S. economic policy is strong and imaginative.

           Economic relations between the United States and India are expanding rapidly.
       The United States is India’s biggest export market and its largest foreign investor.
       U.S exports to India grew by 21 per cent in 2004. As a result of a meeting between
       President Bush and Indian Prime Minister Singh in September 2004 at the United
       Nations, the bilateral Economic Dialogue initiative was reinvigorated. Five key
       discussion areas have emerged: trade policy, finance, energy, environment, and
       commerce, and cabinet and sub-cabinet level meetings are taking place on each
       area. The economic section has developed a detailed strategy document to further
       the discussions. As part of the strategy, and an example of the section’s advocacy
       efforts, various officers in the section have prepared targeted policy papers for
       Indian policy makers on improving the business and investment climate. The
       section contributed substantial negotiation support to the recently signed bilateral


28 .                             OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Open Skies Aviation Agreement and the expected settlement of a major claim by
the Overseas Private Investment Corporation.

    The minister counselor chairs a digital video-conference (DVC) with the three
consulates every six to eight weeks to discuss upcoming economic events, visits,
reporting, and developments throughout India. LES and reporting officers at the
consulates and the embassy participate in the DVC. An agenda is prepared in
consultation with each consulate prior to the meeting and is used to guide the
discussion. All participants in these regular conference calls, but especially the
participants from the consulates, find them highly useful, not only in the guidance
provided on economic reporting and events, but also in creating a sense of inclu­
siveness, of a common mission. There is also substantial e-mail and telephone
communication between the consulate reporting officers and economic officers in
New Delhi. OIG finds this economic DVC a valuable tool in furthering the
mission’s economic objectives and coordinating mission efforts.

    Washington audiences uniformly praised the economic reporting from Embassy
New Delhi and its constituent posts. Cables are concise, comprehensive, timely,
generally well organized and include comments that highlight the relevance of the
reported material. Based on MPP objectives, the section draws up a six-month
reporting plan. Planned reports are frequently supplemented by event-driven spot
reports. Consulate reporting is particularly relevant because of India’s federal
system; state governments retain substantial powers over many economic policy
areas. Consulate General Mumbai contributes valuable reporting from India’s
financial center, particularly on macroeconomic and financial issues, and the
activities of the Mumbai-based Reserve Bank of India and various agencies that
regulate India’s active markets. Consulate General Chennai provides insightful
reports on developments in the growing global sourcing and information technol­
ogy centers of Hyderabad and Bangalore. The consul general in Calcutta, as the
sole reporting officer at post, does a commendable job reporting on economic
growth in one of the poorest regions of India.

    The economic minister counselor meets daily with the Ambassador and DCM
at country team and senior staff meetings and other events. Information and
guidance flows easily in both directions. Within the section, the minister counselor
has designated the next most senior officer in the section as his deputy. The deputy
rates or reviews the section’s other officers and OMS. Although the rating struc­
ture is quite hierarchical, communication within the section is horizontal and
regular. A weekly staff meeting, which includes the section’s four LES, is free­
wheeling, informal, and informative. All section members praised the minister
counselor’s open, inclusive management style, skilled counseling, and attention to


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        29 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       quality of life issues. Officers and LES in the section have very good access to
       Indian economic officials, policymakers, leaders of industry, and journalists and use
       it effectively. Representational funds are used effectively, but limited travel funds
       restrict needed travel outside of New Delhi. None of the positions in the section
       is language-designated although one officer is a qualified Hindi speaker. As English
       is the common language of Indian government officials and business executives, no
       one in the section believes the lack of Hindi language skills hinders successful
       performance of duties.

            There is some overlap of responsibilities between the economic, political,
       science, and commercial sections regarding high technology trade and export
       controls. An internal high technology working group, chaired by the DCM but
       coordinated by the economic section, ensures information sharing and coordination
       and involves the aforementioned sections and the Defense attaché office, USAID,
       and others. At the time of the inspection, the group had met only three times.
       OIG suggested that the DCM consider an informal review of whether the responsi­
       bilities regarding high technology commerce are assigned appropriately.

           The economic section is the mission’s primary advocate for U.S. companies, a
       division of labor that is not generally the case at embassies with an FCS presence.
       The FCS office in New Delhi concentrates its efforts on promoting U.S. exports and
       focuses on small and medium U.S. companies that are new to the Indian market.
       Traditionally, the FCS advocates on behalf of individual companies that may have
       a problem, and the economic section does so when it is a policy issue involving
       more than one company.

            The staffing in the economic section is sufficient, although it is often strained
       because of staffing gaps or extended absences due to TDYs, leave, or illness. For
       nine months in 2004 the section’s deputy was on temporary duty in Iraq. His
       absence placed a considerable strain on the section, only partly relieved by the
       assignment of a presidential management intern. The minister counselor is project­
       ing an increased workload for the section as a result of the reinvigorated Economic
       Dialogue and the increasing number of congressional delegations and senior official
       visitors to India, with their concomitant demand for briefing materials and escort
       officers.

       Trade Promotion

          The mission makes a strong effort to promote U.S. exports. The FCS minister
       counselor for commercial affairs has offices at the American Center in New Delhi
       and plans to move onto the chancery compound by 2008. He supervises the


30 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




largest FCS operation in the world, an effective team of officers and LES special­
ists at seven locations in India. In addition to New Delhi, FCS officers serve in the
consulates general in Chennai and Mumbai. LES specialists staff offices in
Calcutta, Ahmedabad, Bangalore, and Hyderabad. As noted earlier, FCS’s primary
focus is on small- and medium-sized U.S. companies that are new to the Indian
market. The counselor for agricultural affairs from the Foreign Agricultural Service
(FAS), also based in New Delhi, is active on agricultural trade policy issues and
promotes U.S. agricultural product exports. The Ambassador, DCM, and other
senior embassy officers work closely with FCS, FAS, USAID, the environment,
science, technology and health (ESTH) section, and the economic section to
promote U.S. exports. The FCS minister counselor and FAS counselor are key
members of the country team and have ready access to the embassy’s senior leader­
ship.



ENVIRONMENT, SCIENCE, TECHNOLOGY, AND HEALTH
    The Environment, Science, Technology, and Health (ESTH) section became
independent of the economic section in 2000 when a senior officer took up a
position as the ESTH affairs counselor. In addition to the counselor, the section
includes a Foreign Service reporting officer, a health attaché on detail from the
Department of Health and Human Services (HHS), one OMS, and seven LES.
The current ESTH counselor is a Ph.D. physicist on a limited-career appointment
to the Foreign Service and has experience as the environment, science, and technol­
ogy (EST) counselor in China. This background has served the ESTH counselor
and mission well, providing credibility and access in the status-conscious Indian
scientific community and government bureaucracy. Staffing in the section is
adequate. Coordination by ESTH with other sections of the mission is good and
the counselor has ready access, as needed, to the Ambassador and DCM. How­
ever, coordination within the section itself would improve with regularly sched­
uled, all-hands, staff meetings.

    The ESTH section is an important player in the NSSP program. The section
promotes cooperation in civilian nuclear and space activities and encourages India
to meet the U.S. government requirements for effective implementation and en­
forcement of export controls and non-proliferation. As an active member of the
high technology working group, the ETH counselor coordinates effectively with the
other sections of the mission on the NSSP.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         31 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           Addressing the health challenges of India is one of the MPP’s primary objec­
       tives. The health attaché is the point man for HHS’ largest bilateral, health re­
       search and public health program in the world. HHS’ Centers for Disease Control
       and the National Institutes for Health have over 100 projects in India and an
       annual investment of over $40 million in them. The health attaché coordinates
       effectively with USAID on HIV/AIDS and other health programs.

            Reporting by the section is good and covers a gamut of topics including climate
       change, sustainable development, bio-diversity, and renewable energy. Cables are
       concise, well written, and comment on the relevance of the information. A news­
       letter called “India Science News of the Week” is e-mailed to a wide audience in
       the United States, offering a synopsis of Indian press articles on the variety of
       issues covered by the section. Recipients find it useful.

           Scientific and technology cooperation has been a prominent part of U.S.-India
       relations for decades. Most of this cooperation was through the hundreds of
       programs funded since 1987 by the United States India Fund and the Interim Fund.
       The ESTH section oversees USIF and Interim Fund projects that are still active.

           In 2000, India and the United States created the Indo-U.S. Science and Technol­
       ogy Forum (the Forum), financed by a large endowment from the Interim Fund.
       The Forum facilitates and promotes scientific and technological interaction be­
       tween government, academia, and industry in the two countries. The mission’s
       science counselor shepherded the creation of the Forum and recently represented
       U.S. interests in the difficult process of selecting the Forum’s new, full-time, execu­
       tive director. This appointment frees the counselor from a number of the Forum’s
       operational needs, which more appropriately are the executive director’s. The
       ESTH section should continue to work closely with the Forum and encourage it to
       increase the number of programs supported and grants provided so that the Forum
       more fully utilizes its annual budget.



       CONSULAR OPERATIONS
            As of March 2005, the embassy had 53 consular officer positions. This repre­
       sents a huge increase in consular resources in the past two years, thanks to the
       Bureau of Consular Affairs (CA) and others who recognized the need to respond to
       the changing face of visa processing in India. Even if experienced, language-
       skilled officers held all 53 positions, however, the four consular sections could not
       cope with their NIV workloads in a timely manner. Attention to consular staffing



32 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




and support by all elements of the mission and the Department will be vital for the
next several years if the embassy is to address the workload growth systematically.
In the absence of a creative response to the workload growth, the mission risks
finding its bilateral relationship focused on visa services, not the myriad of other
issues in the MPP.

Visas

     Although the immigrant visa workload in India is significant, the driving force
behind consular work and the greatest management challenge mission-wide is the
burgeoning NIV workload. At the time of the 1999 inspection, five Foreign
Service officers provided consular services in Chennai, relying heavily on drop-box
NIV processing. In 2005, there are 20 Foreign Service officers in that same consu­
lar section, due both to a 30 percent annual increase in NIV workload and the new
requirement to interview and collect biometrics on nearly all visa applicants. Even
with this increase in staff, Chennai cannot cope with the NIV demand.

    Responding to the drastic increase in visa demand from the Chennai district,
which includes the cities of Hyderabad and Bangalore, the embassy took the
creative step of designating all of India as one consular district. As a result,
travelers may seek visa appointments in New Delhi and Calcutta, even if they
traditionally live in the Chennai district. However, those two posts, which were
previously able to address their NIV workloads with existing space and staff, are
now seeing massive growth in their workloads and now have lengthy appointment
backlogs despite having increased consular staffing as quickly as the recruitment
and assignments process permits.

    India has advanced nuclear and technological capabilities, and many of its
travelers work in areas of concern for technology transfer. The mission has been
working with CA and the Bureau of Non-Proliferation (NP) to increase its partici­
pation in the Visas Mantis process1. At two posts, officers with science back­
grounds manage the Mantis caseload. The number of Mantis cases forwarded for
processing has increased, and the turnaround time from Washington has decreased,
ensuring appropriate scrutiny without jeopardizing essential travel.

    Despite fraud concerns, approximately 75 percent of all NIV applicants coun­
trywide are found qualified and issued visas. Over 50 percent of the Chennai
applicants, for example, are business travelers, students, or temporary workers

1
  Visa Mantis is a process to review the visa applications of persons who study or work in sensitive
technologies either in the United States or in their country of residence.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                        33 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       whose expeditious processing is vital to U.S. interests. The student visa workload is
       among the highest in the world. CA considers business and student cases to be a
       processing priority. The current significant appointment backlogs in India, ranging
       from 48 to 123 working days, are an irritant in U.S.-India relations and a deterrent
       to bona fide commercial, professional, and cultural exchanges.

       Space

            The new requirement to interview and collect biometric information on virtu­
       ally every NIV applicant has taxed consular sections that were designed for an era
       when cases could be left in drop boxes or mailed-in for review. In addition, the
       growth of the Indian economy, the increased number of Indians living in the
       United States, the enhancement of commercial, political, and cultural ties between
       the United States and India all foreshadow growth in consular work.

           The consulate general in Mumbai is scheduled to move into a new office
       building in FY 2008, although that date may slip. When it does relocate, Mumbai
       will also assume the entire immigrant visa workload from Chennai, freeing up space
       in Chennai for that post’s expanding NIV workload. In Chennai, a recently com­
       pleted renovation added needed interview windows to the configuration of the
       section. Further expansion is warranted, however, and Chennai is looking for ways
       to reallocate its space to meet consular growth. In New Delhi, plans are well
       advanced to create an expanded and remodeled consular section by 2008 that
       should meet future needs. Although Calcutta has the smallest workload of the
       Indian posts, it faces space constraints similar to those of its larger counterparts.
       Calcutta has already submitted a Consular Improvement Program request to
       reconfigure its space to meet security concerns, increase privacy for American
       Citizen Services (ACS) cases, and enhance NIV adjudication capacity in the same
       small area. All concerned parties at the embassy have reviewed the plan, and OIG
       supports its implementation.


          Recommendation 6: Embassy New Delhi, working with the Bureau of
          Overseas Buildings Operations, the Bureau of Consular Affairs, and the Bu­
          reau of South Asian Affairs, should fully fund Consulate General Calcutta’s
          revised consular reconfiguration proposal. (Action: Embassy New Delhi, in
          coordination with OBO, CA, and SA)




34 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Staffing

     Although consular staffing has increased significantly in the last two years, even
the MPP does not acknowledge the degree to which adequate consular staffing and
space dictate the success of many other major mission goals and objectives. Scien­
tific and cultural exchanges, trade enhancement, joint ventures, and political
rapprochement all depend on an accessible visa process and the ability to meet the
needs of an increased number of American citizens in India. Staffing has to be
adequate to handle these priority issues systematically, not on an ad hoc basis.

    The minister counselor for consular affairs (MCCA) in New Delhi constantly
polls the three other consular managers and evaluates workload trends to refine
MPP and consular package requests for additional staff. Often the mission cannot
wait for the MPP process to secure essential consular staff, and the mission works
with CA to fund new positions from the machine-readable visa account until they
can be integrated into the regular staffing complement. During this inspection, the
MCCA sent an urgent request to the Department for seven India-wide consular
positions. Although the four consular sections in India would need several more
interviewing officer positions to eliminate their appointment backlogs, the seven
requested positions are intended to address the appointment backlogs within the
limitations of existing consular workspace.


   Recommendation 7: Embassy New Delhi, in coordination with the Bureaus
   of South Asian Affairs, Consular Affairs, and Human Resources, should iden­
   tify and fund seven new, entry-level, consular positions countrywide. (Action:
   Embassy New Delhi, in coordination with SA, CA, and M/DGHR)


     During the summer transfer season, which is also the critical period for pro­
cessing student applicants, the Indian consular sections have the same inevitable
staffing gaps experienced elsewhere. When appointment backlogs exceed the four-
month point, heading into the critical transfer season, the situation is untenable for
the existing staff. Responding to the need, consular managers attempt to draw on
officers with consular commissions in other sections to staff the visa function, and
then ask CA for the aid of annuitant, when-actually-employed (WAE) personnel.
Although CA provides WAEs and funds their salaries, air travel, meals, and inci­
dental expenses, the issue of housing for those TDY officers poses particular
problems. The mission does not have a surfeit of TDY accommodations. Even
though the India posts have been relying on WAE assistance for a number of years,
the mission does not routinely set aside funds for WAE housing even though CA
makes it clear the embassy must pay the housing costs.

OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005           35 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




          Recommendation 8: Embassy New Delhi, in coordination with the Bureau
          of South Asian Affairs and the Bureau of Consular Affairs, should routinely
          budget sufficient funds for housing for temporary, consular annuitant staff.
          (Action: Embassy New Delhi, in coordination with SA and CA)


           With the rapid growth in staff over the past two years, the New Delhi and
       Chennai posts found themselves lacking mid-level management. In both cases, a
       sole senior consular section chief was required to train, manage, and mentor large
       numbers of first-tour officers until mid-level positions were created and filled.
       Embassy New Delhi recently converted two ELO positions into FS-03 NIV and IV
       unit chiefs but is still awaiting the arrival of the newly assigned officers. The FS-01
       deputy consul general is the logical officer to train and oversee the visa officers,
       most of whom fill one-year rotational positions and never develop the breadth of
       expertise necessary to provide good guidance to other entry-level officers. Having
       ELOs train ELOs is not an acceptable management practice.


          Recommendation 9: Embassy New Delhi should include in the work re­
          quirements of the deputy consul general a requirement that he routinely dedi­
          cate time to oversight of the visa process through regular adjudication meet­
          ings, daily observation of the interview process, and interviewing alongside
          the less experienced officers. (Action: Embassy New Delhi)



          Recommendation 10: Embassy New Delhi, in coordination with the Bureau
          of Consular Affairs, the Bureau of South Asian Affairs, and the Bureau of
          Human Resources, should request that any new entry-level consular positions
          over and above those already established in New Delhi at the time of this in­
          spection be two-year consular assignments, not rotational positions. (Action:
          Embassy New Delhi, in coordination with CA, SA, and M/DGHR)


       American Citizens Services

            There are an increasing number of American citizens in India, particularly the
       children born to Indian scholars and workers during their U.S. stay, and U.S. tourism
       to India is rising, as are the number U.S. businesses setting up operations in India.
       This will increase the passport workload and the demands on the warden system.




36 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    The consular sections have all implemented the new Internet-based Registra­
tion System (IBRS). Mumbai’s consular section, for example, uses it to keep in
touch by e-mail with over 80 percent of its American citizens, more than half of
them the U.S. citizen children of Indian parents. The system does not allow for
reorganizing the entries by address or warden jurisdiction, and it has other limita­
tions that force the posts to maintain parallel card files on most registrants. During
the recent tsunami, for example, Chennai fell back on its card files, organized by
geographic area, to contact Americans in the affected zones. The mission has taken
the initiative to coordinate a regional telegram to CA to propose ways of making
IBRS more useful to the warden network. There remain deficiencies regarding the
inclusion of the more-transient business, tourist, and student communities in the
warden alert mechanism.

    With significant numbers of Indians living, working, or studying in the United
States, consular sections in India have experienced an increase in international
abduction and child custody cases. The Indian court system is slow, and if the
abducting parent has personal contacts in the system, the pace can become slower,
frustrating the left-behind parent. ACS officers diligently work their caseloads and
conduct welfare and whereabouts visits to the abducted children at least twice a
year, providing well-documented reports to the left-behind parent. In New Delhi,
the MCCA has had some success in encouraging the Indian government to consider
adherence to the Hague Convention on Child Abduction.

Fraud

    Although fraud exists in all areas of consular work in India, the mission focuses
most of its anti-fraud resources on relationship fraud in immigrant visa cases and
employment-based NIVs. Three of the four consular sections have dedicated, mid-
level fraud prevention managers (FPM), and the ELO in Calcutta manages that
program in coordination with the Chennai FPM, the countrywide fraud coordinator.

    When the current FS-02 FPM in Chennai departs, the mission intends to
transfer the FS-02 fraud coordinator position to the embassy, where the incumbent
will have access to the full range of law enforcement agencies and the MCCA. The
FPM position in Chennai will then be re-graded at the FS-03 level. The mission is
also making every effort to recruit an at-grade officer to fill the FS-03 FPM position
in Mumbai, where entry-level officers have been carrying out the anti-fraud work
under the guidance of the FS-03 manager of the ACS and immigrant visa units.
Given the pervasiveness of fraud in consular work and the existence of an effec­




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005          37 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       tive assistant RSO investigator (A/RSO-I) program at New Delhi and Mumbai that
       will likely grow, the FPM positions must be staffed by experienced officers who can
       provide continuity and direction to the anti-fraud efforts.

           The A/RSO-Is in New Delhi and Mumbai reflect the benefits of cooperation
       between skilled investigators and anti-fraud units that can identify and develop
       cases for the investigators’ review. The A/RSO-Is also have excellent relationships
       with Indian law enforcement entities on a full range of issues, making it easier to
       tap into those resources on visa fraud matters that might not otherwise attract local
       interest. In Mumbai between July 2003 and the time of this inspection, this coop­
       eration resulted in 24 arrests of fraud ringleaders and document vendors. Prior
       investigative experience is an asset to an A/RSO-I’s integration into anti-fraud
       work abroad but may not always be possible as this program grows. To reflect the
       overwhelming percentage of the A/RSO-I’s time that is spent on consular issues,
       there also needs to be a formal way to include the input of consular managers into
       the performance evaluations of an A/RSO-I. Recent legislation requiring most
       employment-based petitioners to pay a $500 surcharge per petition for the investi­
       gation of their qualifications could quadruple the resources of the A/RSO-Is and
       anti-fraud efforts in India and will require a well-conceived and coordinated plan of
       action.

       Management

           With the consular sections staffed primarily by ELOs, all four consular manag­
       ers are challenged by the burgeoning workload. They must also maintain an accept­
       able level of customer service, pay close attention to security issues (including the
       processing of technology-transfer and other advisory opinion cases), ensure careful
       internal control procedures, and provide ongoing training and development of the
       Foreign Service officers and LES. They also struggle for mission-wide attention to
       their resource needs and must identify ways their staffs can contribute to the
       broader mission priorities. Nothing works on autopilot in India, and the consular
       sections need innovative, hands-on managers with strong interpersonal and team
       building skills.

           The MCCA has done an outstanding job as consular coordinator for the four
       Indian posts and as the unofficial, volunteer coordinator for several other posts in
       the region. He has identified resource needs and ensured that the mission and the
       relevant bureaus support the creation of needed mid-level manager positions. He
       uses DVCs to coordinate policy and encourage participative problem solving. He
       and the other managers have set up a strong internal control regime, and no vulner­



38 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




abilities were found in fee or controlled item accountability. Consular management
initiated a program to send ELOs to other consular sections in India to build
experience and exchange ideas, but the program fell victim to budget constraints.
The consular section chief in Mumbai assigns portfolios for business, student,
seaman, and religious travelers to ELOs to encourage outreach and broaden experi­
ence. To the extent that the visa workload permits attention to the assigned
portfolios, this is a valuable initiative.

     Despite creative management, training, and oversight of the day-to-day activi­
ties of the ELOs, they suffer in the larger consular sections. Although the consular
sections all perform at a high level, morale and job satisfaction vary depending on
the degree of management involvement on or behind the interview line.

Visas Viper

     Each of the posts in India submits a Visas Viper report monthly. Cooperation
among the various agencies represented in New Delhi and with RSOs at the con­
stituent posts is excellent. The DCM takes an active interest in Viper issues and
chairs the regular meetings in New Delhi.

New Delhi

    New Delhi’s visa adjudication statistics are slightly behind those of Chennai
and Mumbai. The embassy’s consular section manages crosscutting issues involv­
ing international adoptions, child abduction, extraditions, technology transfer and
resources, and doing so redirects staff time away from routine processing. This is
particularly true in the ACS section, where the senior LES maintains a vast range
of high-ranking contacts and can facilitate positive, timely action in the most
complicated cases.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        39 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




                  Best Practice: Data-Mining Enhances Outreach,
                   Increases Efficiency, Detects Fraud Trends

               Issue: Consular sections have a wealth of useful information in their databases
          but often have no systematic way to mine and analyze that information. Most often
          data-mining is used to access certain NIV fields to identify the population for
          validation studies, but there is valuable additional information that can also be
          culled, once suitable programs are developed.

              Response: The MCCA hired a skilled LES to develop programs, in conjunction
          with the IT staff, to mine additional information from the visa application data col-
          lected in the visa interview, including a process to track the movement of applicants
          through the visa process, identify and isolate U.S. travel destinations, and monitor
          fraud patterns.

              Result: Every half hour, interviewing officers and consular managers can
          highlight how long the applicant at the NIV window has been in the consular section
          before reaching the final processing stage. Analyzing the wait times allows refine-
          ment of the appointment system so that wait times are now averaging 45 minutes
          from the pre-check process to visa adjudication. The small waiting area is rarely
          overcrowded, and the public has voiced its satisfaction at the streamlined process.

               The LES data-miner is also developing a program that can cull information for
          congressional delegations, STAFFDELs, and others about the number of travelers
          that the consular section has processed in a given period who are attending univer-
          sities in their districts, traveling for business in their areas, or visiting relatives who
          may also be constituents. This initiative should bring the value of a well-funded,
          efficient consular process to the attention of U.S. government representatives
          traveling in the area. Once New Delhi tests these programs, the MCCA intends to
          offer them to other consular sections worldwide.




           New Delhi’s visa operation is appropriately staffed for its workload but
       struggles to address the overflow from the Chennai district, which pushed New
       Delhi’s appointment backlog to over 90 days well before the peak summer season.
       Five of New Delhi’s ELOs are on one-year consular rotations, three are on two-
       year assignments, and each of the four consular units will soon be headed by an FS­
       03 officer, providing appropriate management at all levels. There is a realistic plan
       for growth in the future, with staffing increases reflected in the MPP and the
       consular package.




40 .                             OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Workflow in the visa operation is excellent, despite a paucity of interview
windows. A computer program tracks the speed with which applicants move
through the NIV process, enabling the section to adjust its appointments and
minimize wait times. The embassy will soon put its appointment system’s contract
out for bids. Currently, there are two contractors in India providing different levels
of service. A single contract, providing for offsite fee collection, remote data entry,
courier service (including the return of approved visas and U.S. passports), and
limited consular information should increase efficiency and provide consistency.

Chennai

    The future establishment of a full-service consular operation in Hyderabad and
the centralization of immigrant visa work in Mumbai and New Delhi would relieve
considerable pressure on Chennai’s space and staff. Relief is at least five years
away, however, and until then Chennai’s consular management needs to adapt its
space and increase its staff to address the apparently endless demand for NIVs.

    The consulate general, located in a building built in 1969, has a consular
section that has been expanded eight times since 1988 and was designed to process
2,500 visa applications annually. OIG believes sufficient, secure ground-floor
space is available within Chennai’s compound to accommodate consular needs in
the mid-term. The building’s space needs to be redesigned and reallocated, al­
though the structure has appropriate space for several additional interview win­
dows. This report elsewhere discusses the need for a space planner to look at
Chennai’s space.

    While the inspection was underway, Chennai changed its public access proce­
dures to permit an earlier start to visa processing and to permit extended afternoon
hours, when required. This gives the consular section needed flexibility to deal
with the workload and space issues. Chennai’s consular section expects serious
staffing gaps in the summer of 2005, a significant staffing gap in the consular
section chief position and changes in personnel in the key RSO and principal
officer positions. The MCCA in New Delhi will have to be particularly vigorous in
reviewing workflow, staff training, and space issues in the absence of permanent
consular leadership in Chennai.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005           41 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




          Recommendation 11: Embassy New Delhi’s minister counselor for consular
          affairs should spend at least a week on the ground in Chennai to review con­
          sular operations, propose necessary procedural changes, and brief all affected
          American officers on the needed changes. (Action: Embassy New Delhi)


           In FY 2004 Chennai processed approximately 8,600 immigrant visa cases,
       issuing 5,300. Although there has been an increase in this workload in Chennai due
       to a surge in applications for permanent residence by software engineers and nurses
       temporarily employed in the United States, OIG believes only one full-time officer
       is needed, not the two now performing this function. This would free resources
       that could be better used in the hard-pressed NIV unit.


          Recommendation 12: Embassy New Delhi should reprogram its entry-level
          immigrant visa officer in Chennai to the nonimmigrant visa unit, taking care
          to ensure that one or more nonimmigrant visa officers are cross-trained in im­
          migrant visa work. (Action: Embassy New Delhi)


           Chennai’s fraud prevention unit (FPU) is currently home base for the India
       country coordinator for consular fraud-prevention programs, a position to be
       transferred to the embassy upon the departure of the incumbent. Since the estab­
       lishment of this position, Chennai’s FPU has done an excellent job of collecting,
       evaluating, and disseminating information and documents pertaining to visa fraud.
       Chennai’s quarterly India Fraud Bulletin is useful and was reviewed as such by the
       Department.

       Mumbai

           The consular section in Mumbai is extremely productive, although it is housed
       in an ill-suited maze of corridor offices that does nothing to enhance logical
       workflow. At the time of the inspection, the consular section was in the midst of
       an OBO construction project to facilitate processing and rationalize space until a
       new consulate building is completed in 2008. The construction project consoli­
       dates file holdings in a high-density filing system, adds interview windows, and
       creates workspace for staff who arrived in the past two years to address the double-
       digit yearly growth of the NIV workload.




42 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Consular management pays close attention to management controls, oversight,
and the security and integrity of the consular process. The fact that high standards
can be consistently adhered to in a sub-standard physical plant is a tribute to the
professionalism of the officers and LES employees. Because consular management
strives to make Mumbai even more efficient and productive, it has sometimes
sacrificed some of the quality of life it also wants for the staff. By sometimes
scheduling more interviews per officer than its relatively new officers can handle,
officers often spend long hours on the line and have less than one hour per day for
security advisory opinions, accountability issues, and training. To enhance commu­
nication and involve the officers in broader mission activities, officers are routinely
expected to attend two to four meetings per week during that same five-hour non-
interview block. Each ELO is assigned an outreach portfolio, as described in the
management portion of this report. The confluence of these factors means that
ELOs spend regular, usually uncompensated, overtime daily to complete their
work.

    All ELO positions in the consular section are two-year assignments, and the
section has an internal rotation program to expose all ELOs to two and sometimes
three consular units during their assignment. Mumbai has the highest immigrant
visa workload in India. Once Mumbai’s new consulate building is completed,
Chennai’s immigrant visa workload will be consolidated in Mumbai.

    The consular section adheres to the most recent standard guidance on the
referral program, and the consular section carefully validates the return of each
referral case. On the other hand, the section has successfully withstood occasional
pressure from other elements of the official community to facilitate visa appoint­
ments for persons who cannot benefit from the referral system or to reverse refusals
of persons tenuously connected to a contact.

Calcutta

    Consulate General Calcutta’s small consular section is well managed and
effective and has two American officers and six full-time LES employees. The
collaborative support provided by the consular manager and the management
officer to their sections is particularly beneficial. The rationalization of the consu­
lar workspace, as discussed earlier, should equip the section to meet its future
needs.

    Six of the Calcutta consular district’s 12 states are restricted areas, requiring
travel permits for foreign diplomats. Travel permits can only be obtained from the
Ministry of External Affairs in New Delhi with eight weeks advance notice. This


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005           43 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       requirement severely undermines the post’s ability to carry out consular services
       beyond Calcutta and nearby metropolitan centers. The section’s ELO has been in
       Calcutta since July 2004 and has not yet obtained Ministry of External Affairs
       permission to travel throughout the consular district. In addition, the large popula­
       tion, geographic size, and convoluted shape of the consular district, coupled with
       poor infrastructure and insurgency activity, prohibit travel to respond to American
       citizen emergencies and provide outreach, fraud prevention investigation, and
       related consular services. The embassy has raised this issue at the highest levels of
       the Indian government, without success.

           Calcutta’s NIV workload has increased by more than 50 percent in the last two
       years, peaking at over 25,000 applications in FY 2004. Calcutta has seen a steady
       increase in temporary worker visa applications over the past three fiscal years due
       to the growing IT sector in that area. In addition, applicants from the Chennai
       consular district are permitted to apply for NIVs in Calcutta. Since this policy was
       implemented in March 2004, roughly 20 percent of Calcutta’s NIV total in FY
       2004, and almost 50 percent of its total for FY 2005, have come from the Chennai
       district.



       PUBLIC DIPLOMACY
           The numbers tell the tale. Less than 20 years ago, there were 70 American
       officers and 630 local employees carrying out the U.S. Information Service’s (USIS)
       India program. The American Studies Resource Center in Hyderabad was one of
       the finest such facilities outside the United States and offered outstanding services
       to scholars from throughout the Middle East and Asia. It closed its doors in 1995,
       however, and the rest of the USIS in India shrank to minimal levels. After some
       recent staff increases, there are now 18 direct-hire American officers and 176 LES
       in the public affairs section (PAS) to advance U.S. interests and MPP objectives in
       the world’s largest democracy. With a fraction of the tools formerly at its disposal,
       the hard-pressed PAS is nevertheless at the forefront of the mission’s public efforts.
       The public affairs officer (PAO), an energetic, hands-on manager, sets a personal
       example for his section through his tireless engagement in all aspects of his
       section’s programs, his responsiveness to Washington and front office concerns, and
       his ability to link available resources to the objectives of the MPP. He directs a
       truly massive operation that is appropriate to the importance of India to U.S. policy.

          The PAS maximizes its available resources and produces a high volume of
       programs with U.S. speakers (in person and via DVCs), a vigorous set of exchanges,


44 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




and well-targeted grants. Indeed, in many respects the public diplomacy program in
India recalls the Cold War era of big USIS posts having expansive programs and
substantial budgets. New Delhi and its constituent posts constitute the
Department’s largest public diplomacy office and that program’s agenda reflects and
has the necessary financial resources to support the Department’s new public
diplomacy and other priorities. For example, in response to current Department
emphases, PAS has initiated a carefully designed outreach to India’s huge Muslim
community, employing especially well International Visitor and Citizen Exchange
grants and micro-scholarships for English language study. The four American
information resource centers (AIRCs) at the embassy and constituent posts are
models of effective outreach and use of new information technologies to reach key
audiences. Programs and collections at the AIRCs seek to attract younger audi­
ences - carrying on a decades-long tradition of building close ties between future
leaders and the American centers around the country. The post has four American
Corners around the country and its flagship publication, Span magazine, retains its
prestigious niche in a highly competitive print media environment. The magazine is
published in English, Hindi, and Urdu, which make it accessible to a much larger
audience. The post’s book reprint program supplies a steady stream of good
American books on a variety of MPP topics to target audiences and book distribu­
tors. On the English teaching front, the upcoming assignment of an English
teaching officer to New Delhi will substantially improve the post’s capabilities to
work with India’s English teachers.

    The geographic range and population diversity of India challenge the public
affairs and public diplomacy programs, but program coordination countrywide is
tight. All PAS officers and senior LES report a good information flow within the
New Delhi headquarters and between New Delhi and the field. All PAS elements
appreciate the attention given to their program interests and resource needs. The
PAO has sought to maintain a transparent budgeting process, so that all staff
understands the post’s financial picture. Within the mission, PAS is a fully inte­
grated player. At a meeting of the embassy’s International Visitor Program selec­
tion committee meeting where ten embassy sections participated, it was clear that
everyone understood the purpose of the program and the requirements of the
selection process. This reflected careful preparation for the meeting and the provi­
sion of good briefing materials by the PAS exchanges staff. OIG suggested to the
PAO and other PAS officers that the public diplomacy small grants program could
constitute another effective mechanism to engage mission colleagues still further.
For example, the addition of representatives from the political and economic
section to the PAS grant review committee would open up that resource to other
parts of the mission and stimulate mission support for projects in areas where PAS
might not yet have good contacts.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        45 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           The PAS is adjusting to the rising importance of the vernacular print and
       broadcast media by adding local staff fluent in some of India’s 21 official lan­
       guages. On the media side, these staff members contribute daily to the post’s
       media analysis, so that consumers of this important product receive a good range
       of opinion and commentary. Although there is widespread English fluency among
       key audiences, PAS New Delhi has concluded that products and programs aimed at
       younger and wider audiences must also be available in languages other than En­
       glish. Urdu speaking LES are particularly critical in building post contacts with
       India’s huge Muslim community. The Hindi and Urdu editions of Span magazine,
       now both in their second year of publication, are notable examples of the post’s
       determination to expand the reach of this flagship publication.

       Staffing and Resources

           The PAS, said one Washington observer, has the staff and resources to simulta­
       neously meet Washington’s requirements and pursue local program opportunities.
       One outstanding example of the latter was the post’s production and publication of
       “People, Progress, Partnership: The Transformation of U.S.-India Relations,” a
       125-page book in English and Hindi editions highlighting the many areas of in­
       creased interaction between our two countries. Such a publication is now beyond
       the capability of most other PASs, but PAS India was able achieve a superb result.

           Throughout its substantial agenda, the post adheres to the MPP’s discipline,
       and the PAS finds its workload and pace unrelenting. U.S. officers and the talented
       local staff put in long hours to meet demands from the mission and the many
       Washington elements with ongoing programs in India. One public diplomacy
       officer said she was at her desk one hour after arrival at post and did not pause for
       six months. The post’s admirable determination to send an American officer and a
       senior local employee with each U.S. speaker traveling in the country means that
       the program staff is frequently on the road, often at considerable personal hardship.
       The post has used the MPP to request information officer positions for Chennai
       and Mumbai. The addition of these two positions would significantly improve the
       post’s ability to expand relationships with the local print and broadcast media.
       Indeed, an explosion in the number of private television stations around the coun­
       try and increased Voice of America (VOA) Television interest in broadcasting to
       Indian audiences will provide fresh programming opportunities, but PAS is not now
       well positioned to take advantage of this development because of its shortage of
       press officers at the consulates.




46 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 13: Embassy New Delhi, in coordination with the Bureaus
   of South Asian Affairs and Human Resources, should identify and fund
   resources to establish and fill an information officer position in Mumbai and
   an information officer position in Chennai. (Action: Embassy New Delhi, in
   coordination with SA and M/DGHR)


Program Reporting

    The PASs in New Delhi and at the consulates provide superb reporting on
major programs conducted by the post. In addition to individual program evalua­
tions, the weekly “results report” and regular atmospherics reports give Washington
readers and support elements an excellent account of the use of post resources and
Washington products. Detailed reports from the four AIRCs demonstrate the
success of intensive outreach by the research center staff to key contacts on MPP
themes, along with the success of ongoing efforts to expand engagement by the
AIRCs with new audiences. PAS New Delhi employs an outstanding distribution
and records system that fully documents program participation by post contacts and
generates statistical data used by the post to refine program planning. In OIG’s
survey phase of this inspection, PAS New Delhi received plaudits from several
Washington offices that use New Delhi’s reports extensively for their own highlight
reporting and resource requests.

Span Magazine

    Span magazine, one of the last such publications produced by a public affairs
office, has an annual budget of over $500,000 for printing and distribution of its
60,000 bi-monthly copies, most of which are provided to post contacts for free.
PAS New Delhi recognizes the need to justify this costly expense and to generate
offsetting income. However, revenue from subscriptions and newsstand sales
covers only a very small amount of the Span bill. The post has investigated open­
ing the magazine up to advertisers, but the cost-benefit analysis did not indicate
any advantage to selling advertising. Span, published in India for nearly five de­
cades, is a nationally known and highly regarded magazine. The post regularly
purges the distribution list and conducts focus group studies and reader surveys to
determine impact and actual readership levels. Based on these reviews, PAS
recently estimated that each copy had nearly 30 readers. High-quality content,
either reprints from U.S. journals or post-generated articles, supports MPP themes




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005       47 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       and highlights mission activities. Urdu readers have commented that the Urdu
       edition is the best publication in that language in India, and the magazine’s new
       editor plans to have selected Span articles translated into other national languages.
       At a recent book fair at the Islamic University in New Delhi, students paid for
       subscriptions from their meager personal funds, and university officials noted the
       positive message about America that Span conveys to Muslim students. Span has
       won numerous awards from Indian professional associations for its content and
       design. With the nearly total elimination of magazines from the public diplomacy
       toolkit worldwide, Span exemplifies how a valuable, attractive, and informative
       magazine can reach key audiences and promote mission objectives.

       The American Centers in India

             American centers are well-established fixtures on the intellectual and cultural
       scenes in New Delhi, Mumbai, Chennai, and Calcutta. OIG agrees with the
       embassy’s leadership that India is a country where free-standing American centers
       still play a vital outreach role. Ongoing reviews of shortcomings in U.S. public
       diplomacy, conducted by independent observers like the 9/11 Commission, also
       encourage the kind of vigorous outreach provided by the American centers in
       India. For decades, the American officers and local staff in the centers nurtured
       productive relationships with the gamut of India’s present and future leaders. The
       centers are platforms for policy advocacy and hubs for traditional public diplomacy
       speaker programs, film showings, libraries and cultural presentations. They are
       effective showcases for the new technologies for research in which, for example,
       journalists seek background for an article or senior academics study a U.S.-related
       issue. Indeed, mission officials - with considerable Washington support - make a
       compelling case that the transformation of U.S.-India relations and the emergence
       of India as an economic and technological powerhouse warrant construction or
       acquisition of new state-of-the-art American center facilities.

           OIG is concerned, however, regarding the current plan to close and reconfigure
       the American centers in New Delhi and Mumbai. This could fundamentally alter
       the centers’ local reputations as stimulating and welcoming venues for interaction
       with PAS staff. OBO now intends to move Mumbai’s American Center facilities
       onto a new consulate general compound in 2008. This move presents two major
       issues: PAS officers say the public affairs operation’s space in the plan, including
       the information resource center/library, is inadequate for PAS needs, and moving
       onto the compound will end to the center’s role as a highly visible and accessible
       American institution. In New Delhi, the plan would close the American center and
       move parts of the public diplomacy staff onto the embassy compound. It would



48 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




also move other PAS elements into existing, leased, commercial space shared with
commercial tenants. The total impact would harm the center’s well-established
identity as an important American presence in the city.

    OIG believes that the mission and the Bureau of South Asian Affairs have
valid reasons to question the planning underway for the centers. Indeed, the
embassy has vigorously presented, in cables and in briefings to senior visitors, its
alternative vision of a state-of-the-art, stand-alone American center in New Delhi
and how such a facility would help advance U.S. public diplomacy objectives in
India. The Bureau of South Asian Affairs and the Office of the Undersecretary for
Public Diplomacy and Public Affairs have joined the embassy in expressing their
strong support for the new center. OIG also sees great merit in the concept.
However, the mission and the concerned offices in the Department have not yet
developed an agreed-upon strategic argument for a new center in New Delhi or
formally requested Department approval of a new stand-alone center that could
serve as a model for other centers in India or the world. Without the strategic
argument and the action request to the Department, the Department has no basis
to seriously consider the concept or identify the resources needed for a new model
center.


   Recommendation 14: Embassy New Delhi, in coordination with the Bureau
   of South Asian Affairs and the Office of the Undersecretary for Public
   Diplomacy and Public Affairs, should draft a strategic plan for the develop­
   ment of a model American Center in New Delhi and submit this plan to the
   Department for action. (Action: Embassy New Delhi, in coordination with
   SA and R)


United States Educational Foundation in India

    The public diplomacy office and the United States Educational Foundation in
India (USEFI) enjoy a close and harmonious working relationship. USEFI occupies
space in the American Centers in Mumbai, Calcutta and Chennai - a physical
proximity that greatly enhances interaction between USEFI and PAS. OIG found
two areas of concern regarding USEFI, however. The U.S.-India agreement creat­
ing USEFI states that the U.S. government will fully fund USEFI. Despite years of
effort by the embassy, the Indian government has yet to agree to amend the agree­
ment and make a contribution to the Foundation. The USEFI executive director
provided OIG with a full history of the embassy’s attempts on this score. There
has been some progress recently. This was the subject of a formal recommendation


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        49 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       in the 1999 inspection of the U.S. mission in India, but since the embassy has been
       doing what it can to move this to a positive resolution, OIG is not making another
       formal recommendation. A second area of concern relates to USEFI space in the
       American centers. The American center in Mumbai will move to a new consulate
       compound by 2008, but there is no plan to provide USEFI with office space there.
       The Mumbai office will therefore have to find its own space in a crowded and
       expensive commercial market. This is not an issue for PAS or the embassy, but
       OIG believes the embassy members on the USEFI board can keep the subject on
       the USEFI agenda and ensure timely action on locating new space.

       Management of Public Diplomacy Resources

            Several aspects of PAS management and embassy support to PAS raise con­
       cern. In the course of the consolidation of USIA into the Department, the USIS
       American executive officer position transferred to the embassy’s management
       section as a deputy for the management counselor. Several local employees in
       financial management, clerical, and other program-support roles also “cross
       walked” to ICASS. These personnel actions reflected one of consolidation’s major
       goals: elimination of USIA’s separate management structure and transfer of most
       PAS management requirements to financial management and other administrative
       staff elsewhere in the embassy (especially under ICASS). General dissatisfaction,
       within PAS and in the embassy’s management section, regarding the new adminis­
       trative arrangements gradually led to a reversal of some consolidation actions. To
       try to improve program support, the embassy worked with PAS to reprogram the
       deputy public affairs officer position as a program development officer in 2000. In
       all but name, this action recreated the executive officer position. LES financial
       management and procurement positions have also returned to PAS. Meanwhile, the
       embassy is preparing to shift responsibility for mailroom personnel and equipment
       at the American center in Mumbai from ICASS back to the PAS.

            OIG cannot support this trend. The mission’s solution to long-standing admin­
       istrative and management problems regarding public diplomacy support require­
       ments, problems that predate the USIA-Department of State consolidation, has
       been to leave or reassign responsibility for many of those support requirements in
       PAS. This is troubling since PAS and the embassy are arguing for new public
       diplomacy American officer and LES positions, even as PAS has assigned staff to
       tackle coordination and service delivery problems with the embassy’s bureaucracy.
       The PAS India program is, indeed, huge. The separate American Centers in New
       Delhi, Mumbai, and Calcutta present management and coordination problems for
       the delivery of services, maintenance, and other daily needs. OIG believes that



50 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



solutions exist to help PAS focus its strained personnel resources on its program
objectives. These measures include internal reorganization within PAS and greater
involvement by embassy management staff in supporting the many administrative
needs generated by an active public affairs office operating in multiple locations.
The embassy can take one necessary step: reprogramming the program develop­
ment officer position that now focuses on management to a public diplomacy
position actively engaged in conducting public diplomacy. PAS may consider
assigning this position to a consulate public affairs operation rather than to the
embassy.


   Recommendation 15: Embassy New Delhi, in coordination with the Bureau
   of South Asian Affairs, should reprogram the public affairs section program
   development officer position no. 60-483000-4400 P as a public diplomacy
   officer position and rewrite the work requirements for the position to empha­
   size the public diplomacy aspects of the position. (Action: Embassy New
   Delhi, in coordination with SA)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005       51 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





52 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                  RESOURCE MANAGEMENT

     There are 207 direct-hire Americans employees at Embassy New Delhi and its
constituent posts. There are also 38 family member appointments, two temporary
staff members working in the health unit, and 1,245 LES. There are 79 other
direct-hire Americans in India. They work for the Department of Defense (30) and
eligible family members (2), the U.S. Agency for International Development (19),
the U.S. Department of Commerce (7), the Drug Enforcement Administration, (5),
Federal Bureau of Investigation (3), Department of Homeland Security (4), Library
of Congress (3), the Centers for Disease Control and Prevention (3), the Foreign
Agricultural Service (2), Foreign Broadcast Information Service (1), Voice of
America (1), and the Department of Health and Human Services (1). There are
over 250 LES at those agencies.

    Embassy New Delhi’s fiscal year budget is $21,328,071, including $10,941,700
for ICASS, $5,816,581 for diplomatic and counselor programs, and $4,569,790 for
public affairs.

     A seasoned management counselor leads the management section. The deputy
management officer is responsible for the human resources and the financial man­
agement sections within the management structure and for the constituent posts.
The position should include responsibility for administrative issues at the American
centers. The management counselor and the deputy are attempting to remedy
ongoing problems and to establish a customer-service orientation. However,
management has not been entirely responsive to the needs of the sections and
constituent posts. The negative comments made by embassy and consulate em­
ployees focus on health care, commissaries and canteens, housing, maintenance,
and repairs. Otherwise, relatively high scores were provided on the OIG’s em­
ployee questionnaires. The embassy’s remedies for problems, meanwhile, are not
mirrored fully in the consulates. For example, a management DVC conducted with
all posts focused on New Delhi issues and the community liaison officer’s plans,
not on consulate issues. That once per month conference should focus on the
constituent posts, while the embassy’s other weekly meetings could focus on the
embassy.

    Embassy New Delhi’s large management section has 25 direct-hire American
officers, two part-time community liaison officers, and, with the exception of one


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        53 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       general services office (GSO) position, the section is fully staffed. The financial
       management unit operates according to regulations but does not have a positive
       relationship with the constituent posts. For instance, all procurement sections wait
       for long periods for funds-availability data, and two consulates believe there is
       unfairness in the distribution of financial resources. Delays in implementing the
       computer assisted job evaluation (CAJE) and a recent pay raise provided to local
       staff resulted from the human resources (HR) unit’s slow responses. Further, HR
       has not converted the positions of some local employees who are still employed
       under contracts instead of employment agreements. Constituent posts doubt the
       funding shortfalls relate to wage increases and implementation of CAJE results
       because the shortfalls predate implementation of these increases.

            The facilities management services (FMS) office and the GSO each report to
       the management counselor. Consequently, there is a gap between acquiring or
       refurbishing a residence and making it ready for occupancy in New Delhi. The
       consulates have had less problem with moving staff directly into permanent hous­
       ing.

            In New Delhi, the facilities management staff provides maintenance and repair
       services for U.S. government-owned and short-term leased properties. Although
       there is a useful set of telephone numbers and e-mail addresses, occupants in
       residential units call the GSO, not the FMS, for repairs. The management counse­
       lor is considering a plan to establish a housing office to better coordinate FMS and
       GSO activities.



       RIGHTSIZING
            A rightsizing exercise is needed to evaluate the workloads and number of local
       and administrative staff needed to execute mission requirements. Although U.S.
       interests are growing at Mission India, staff resources may be excessive in some
       sections and short in others. The ratio of ICASS staff to officers is 2.9 to 1. This
       is significant because the MPPs for 2005 and 2006 request a total of 33 additional
       officers. The embassy has not identified the related number of additional local-hire
       and direct-hire staff that would be needed. This analysis is an important adjunct to
       position-increase requests in view of static and shrinking financial resources. Aside
       from possible adjustments in ICASS staffing, OIG believes post management
       should give priority to American staffing shortages in diplomatic security (one
       position), consular affairs (up to seven positions), and public diplomacy (two
       positions), and reflect these priorities in its MPP.


54 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    The Department cross-walked the New Delhi USIS executive officer position
when USIA merged with the Department, and the existing executive officer posi­
tions disappeared. Despite cross-walking this position in New Delhi, the embassy
placed the executive officer function back in PAS in 2000 by reprogramming the
deputy PAO position as a program development officer at the American center to
handle PAS management and administration. OIG recommends adding those
responsibilities to the deputy management officer’s work requirements statement,
freeing the program development officer management position for public diplomacy
program activity. The incumbent deputy management officer position would then
be responsible for coordinating with embassy elements the financial and administra­
tive functions underpinning PAS programs. Elsewhere in this report, OIG recom­
mends reprogramming the program development officer as a public diplomacy
officer.


   Recommendation 16: Embassy New Delhi, in coordination with the Bureau
   of South Asian Affairs and the Bureau of Human Resources, should rewrite
   the work requirements for the deputy management officer’s position to in­
   clude management oversight and responsibility for public affairs administra­
   tive matters. (Action: Embassy New Delhi, in coordination with SA and
   M/DGHR)




FACILITIES MANAGEMENT
     The facilities management staff has not adequately served the constituent
posts’ needs, except in Calcutta. There, OIG found a well-maintained facility,
which calls into question OBO’s long-range plan to replace it. The facilities
management staff ’s occasional visits have not been sufficient to ensure that U.S.­
owned property is properly maintained, particularly in Mumbai. There are three
facilities management officers in New Delhi, and OIG believes two officers are
enough to focus on New Delhi’s facilities issues. There is a discrepancy between
attention to New Delhi’s facilities problems and the consulates’ problems. Given
plans to construct a new compound in Mumbai and the need to maintain U.S.­
owned properties until the compound is completed, greater FMS attention is
needed. Current plans to transfer one of New Delhi’s three facilities management
staff to Mumbai may resolve some of the consulate’s maintenance problems.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005       55 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



            The locally employed maintenance and repair employees have not provided
       competent maintenance services and must return many times to repair simple
       problems. OIG suggested that Embassy New Delhi develop training programs for
       all posts’ repair staffs.

       Consulate General Chennai

           Consulate General Chennai’s primary facilities problem is inequitable space
       allocation. Some sections have luxurious amounts of space while the consular
       section is so crowded that local staff do not have chairs and must stand or share a
       seat. The large auditorium is used infrequently for representational events, but the
       consulate has allocated library space liberally on the second floor because the floor
       cannot apparently support the bookcases unless they are kept far apart. It may be
       possible to relocate staff from first-floor offices to underutilized space elsewhere in
       the building. Some of this reallocation should be managed locally. In fact, during
       the inspection, the consulate reassigned underutilized space and requested help
       from OBO in determining how to move some sections. Although the consulate has
       been proactive in resolving the space problems, the embassy and the Department
       must be involved in decisions involving moving the American Information Re­
       sources Center’s library. Consulate employees said they expected to move to a new
       consulate building within the next five to ten years and planned to begin searching
       for land. OIG, while acknowledging that Chennai may be included in OBO’s long-
       range plan, found no evidence that a land search is needed now.

           The computer center in Chennai is in deplorable condition, with rust, dripping
       water, and an array of water buckets presenting life-safety and health issues. OBO
       support has not been adequate. Asked why repairs to leaking pipes, identified more
       than one year ago, are still incomplete, OBO said it planned to complete repairs in
       April 2005.

            The consul general’s residence also needs repair. Again, brief, intermittent
       visits by facilities management employees from the embassy were insufficient to
       ensure that this U.S.-owned property was properly maintained. A spacious resi­
       dence, the premises are shabby and inhospitable. The windows have no screens in
       this mosquito-infested area, and the facilities staff retiled the swimming pool apron
       in piecemeal fashion. OIG suggests that Embassy New Delhi’s facilities staff
       provide adequate oversight, so that repairs and refurbishment are completed before
       the new principal officer arrives in August 2005.




56 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Consulate General Mumbai

     In 2004, OBO provided about $18 million to purchase a 10-acre site for a new
consulate general compound. The plans for the new compound include space for
all sections currently associated with the consulate, a warehouse, a general services
annex, a Marine security guard residence, and the consul general’s residence. The
new compound will cost nearly $100 million.

    Embassy New Delhi’s FMS is not properly maintaining the U.S.-owned, three-
story apartment building, Washington House in Mumbai. The building has nine
apartments, a commissary, and fitness room. The top floor is a recreation room
where the recreation association has employed an artist to paint a mural. OBO has
made superficial and cosmetic repairs, but the building is unattractive. Consulate
General Mumbai plans to move in 2008 to a new compound located about one
hour away from Washington House. Therefore, OIG agrees that the embassy
should sell Washington House, in coordination with moving to the new compound
and locating residential space in that vicinity.

    The future of the existing consulate building, Lincoln House, remains unre­
solved. The U.S. government acquired the building in 1958. The consul general’s
residence is on the third floor and fourth floors. Built in 1938 as a maharaja’s
palace, the building shows its age, and its maintenance has been poor. Embassy
New Delhi believes the U.S. government should keep Lincoln House and use it for
future public diplomacy needs, notwithstanding plans to include public diplomacy’s
offices in the new compound. To bolster its position, the embassy tasked the
consulate to 1) determine restrictions on the property, 2) review the requirements
and cost of compliance with the Americans with Disabilities Act, 3) determine
what public diplomacy functions could take place there and prepare a floor plan for
such functions, and 4) determine the security standards that must be met to comply
with diplomatic security requirements. The embassy also tasked its facilities office
to identify funding to have an architectural and engineering firm review the
building’s physical and technical soundness. Although the results of these tasks
may be informative, they are unlikely to make a case for keeping the structure.

    Keeping Lincoln House would require a large investment to refurbish it and
recurring costs for maintenance, in addition to maintenance costs for the new
compound. In the last two years, Embassy New Delhi has spent close to $40,000
annually to maintain the building. OIG believes more costly support would be
needed to provide proper maintenance. Any plan to keep Lincoln House would
also require co-location waivers from the Secretary and the Assistant Secretary for
DS and setback waivers from DS.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         57 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



           OIG knows of another instance in which OBO is investigating the advisability
       of keeping a similar, U.S.-owned, historic property and leasing it for uses compat­
       ible with U.S. goals. In this case, though, there is insufficient evidence for keeping
       Lincoln House, and OIG agrees with OBO that it should be sold in coordination
       with moving to the new compound.

       Housing

           A few officers reported personal experience with long stays in temporary
       housing, the poor quality and condition of residential units in New Delhi, and
       incompetent repair staff. Responding, Embassy New Delhi plans to annually award
       up to six indefinite-delivery, indefinite-quantity contracts to expedite make-ready
       needs in 50 to 60 residences. These contracts will cost nearly $5 million over the
       next five years. The embassy will ask landlords to pay the difference between the
       $5,000 that OBO allows for each make-ready project and the nearly $15,000 cost
       to make a new residence suitable for occupancy. The embassy will then pay for the
       make-ready sum as part of the monthly or annual rent. Housing at the constituent
       posts is adequate and employees generally move into permanent residences soon
       after they arrive.



       PROPERTY MANAGEMENT
          The embassy’s 2004 property management report stated that its nonexpendable
       and expendable property shortages were within reasonable limits. Staffing is
       adequate and allows for separation of duties. This change is significant, given the
       2003 malfeasance problem that the embassy addressed by terminating some staff
       and restructuring property management.

           The embassy stores nonexpendable property in an on-compound warehouse
       where the property lacks adequate covering and is exposed to dust. Although the
       storage space is sufficient, the warehouse lacks proper shelving to optimize the
       space.

       Consulate General Mumbai
            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


58 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Motor Pool

    Embassy New Delhi’s motor pool includes 71 vehicles and 40 drivers. Drivers
work one of three shifts and incur overtime only for official visits and special, front
office needs. The motor pool supervisor ensures that vehicles are properly serviced
and maintained and collects required data for reports. However, some drivers do
not always prepare the reverse side of the Vehicle Log in accordance with Depart­
ment requirements.

    Consulate General Mumbai’s drivers work 48 hours Monday through Friday,
from 7:45 a.m. to 6:00 p.m. All drivers averaged about 12 hours of overtime each
week during January and February 2005. This overtime means that the drivers
were working longer hours than recommended to ensure safe driving. OIG believes
scheduling drivers on a shift basis could reduce overtime costs and ensure safe
driving practices.


   Recommendation 17: Embassy New Delhi should direct Consulate General
   Mumbai to develop a schedule that staggers the drivers’ arrivals and depar­
   tures to cover more hours during evenings and weekends without incurring
   overtime. (Action: Embassy New Delhi)




HUMAN RESOURCES
    The two direct-hire officers in Embassy New Delhi’s human resources (HR)
office are responsible for all embassy personnel needs and for managing and guiding
local-hire HR staff at the three constituent posts. The consulate’s HR staff have
not had needed training and receive limited guidance from New Delhi. The man­
agement officers at the consulates are also unfamiliar with HR operations and
cannot provide useful advice when difficult problems arise. While Embassy New
Delhi’s senior management staff could provide more frequent and longer visits,
senior LES specialists who understand local laws and problems would be a better
resource to train locally employed staff at the consulates.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                      59 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




          Recommendation 18: Embassy New Delhi should send its well-trained,
          experienced human resources local staff to train local staff in similar positions
          at constituent posts. (Action: Embassy New Delhi)


           Throughout Embassy New Delhi and its constituent posts, work requirements
       statements and performance evaluation reports are sometimes late or incomplete.
       The embassy’s HR office has not kept Embassy New Delhi’s executive office
       informed about late evaluations and has not provided the DCM or consuls general
       at constituent posts with lists of the delinquent raters. OIG noted the same prob­
       lems in its 1999 report and recommended that Embassy New Delhi monitor and
       report on the completion of these reports.

       Computer-Aided Job Evaluation

           Embassy New Delhi’s delay in communicating the results of the computer-
       aided job evaluation (CAJE) process to staff concerns the embassy’s front office
       and negatively affected the work force. The causes for the delay are in dispute but
       were, in part, linked to Embassy New Delhi’s delayed responses to the
       Department’s Office of Overseas Employment. The Department authorized
       Embassy New Delhi to implement CAJE results on January 12, 2005, recognizing
       that a few positions remained unresolved. The embassy chose to delay implement­
       ing CAJE until all the classifications were finalized. The embassy announced the
       results of CAJE in March 2005, with an effective date at the beginning of April.

       Pay Increase

           Embassy New Delhi’s three-pay-period delay in implementing the local staff
       pay increase troubles the embassy’s front office. The increase was subject to the
       availability of funds. In December 2004, the Department authorized the embassy
       to implement a 12 percent increase, effective the beginning of the second pay
       period in 2005. However, SA could fund only a six-percent increase. During the
       inspection, SA and the embassy agreed to implement a 12-percent increase, effec­
       tive March 20, 2005. The pay increases will result in reductions in travel, training,
       and other discretionary accounts.




60 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



LOCALLY EMPLOYED STAFF
     LES belong to a federation of committees chartered to advance local staff
issues. The overall board, located in New Delhi, communicates with its constitu­
ents via e-mail, but the embassy does not allow board members to use DVC facili­
ties nor does it provide funds to allow them to travel to meet with consulate staff
in other cities. The embassy takes this position because it does not support this
kind of expenditure. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT
SERVICES
     The dynamic International Cooperative Administrative Support Services
(ICASS) council conducts business at regularly scheduled monthly meetings. The
council revised service standards last year and continues to review them, as
needed. The council has been investigating the cost of outsourcing some adminis­
trative operations and has begun to address consolidating administrative services.
OIG discussed the separate travel and motor pool operations that USAID main­
tains and understands that USAID would willingly consolidate operations if ICASS
did not increase its overall administrative costs. The management counselor and
the ICASS chairman plan to continue to look for ways to reduce costs for the U.S.
government and the participating agencies.

American Centers

    American centers, housed in a stand-alone buildings in Calcutta, Mumbai, and
New Delhi are separate cost centers for accounting purposes and fall outside of
ICASS’ administrative support for certain services. Instead of getting administra­
tive services under ICASS, the agencies housed in these centers receive direct
charges for services. For example, the embassy charges each agency at the center in
New Delhi for window washing, use of the shuttle that operates between the
chancery and the center, and for painting and upgrading the canteen. There is often
controversy about which services each agency wants and how to allocate the costs
across agencies. If the American centers were not separate cost centers, but were
consolidated into ICASS, those costs would be applied to ICASS charges embassy­


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005               61 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       wide. When the agencies at the American centers move to embassy compounds,
       they will become ICASS subscribers and the direct-charge anomaly will end. OIG
       believes all administrative costs at these centers should be brought into the ICASS
       process. It can do so in the ICASS software by establishing sub-cost centers within
       the ICASS budget for each of the American centers, allocating staff time and other
       support costs to the sub-cost centers, and adding the workload consumed by the
       agencies located at the centers. This solution will add the transparency that is
       lacking under current arrangements and will assure the agencies in the American
       centers that their costs are not simply mingled with support provided at the em­
       bassy or annex.


          Recommendation 19: Embassy New Delhi should discontinue direct charg­
          ing the agencies housed at the American centers for administrative services
          and institute a process for charging these services under the International
          Cooperative Administrative Support Services. (Action: Embassy New Delhi)




       FINANCIAL MANAGEMENT
           The financial management office (FMO) provides services to New Delhi, the
       constituent posts, and other U.S. government entities, however its customer service
       image is a concern. The section’s experienced and qualified staff could use ad­
       vanced financial training, although they review accounts regularly and follow
       required procedures. Some of the embassy’s sections and two of the consulates
       complained that the FMO’s control over the budget is not transparent and its
       explanations are unclear. There needs to be more consultation with the constituent
       posts and some section heads regarding how the FMO determines its budgets and
       manages U.S.-government funding.

           In Embassy New Delhi and its constituent posts, some employees have waited
       nearly three months for the processing of their travel vouchers. The embassy does
       not use the Department’s automated Travel Manager software. Instead, the travel
       office prepares hard-copy travel authorizations and vouchers. OIG addressed this
       in an informal recommendation in its 1999 inspection report. OIG continues to
       believe that using Travel Manager could speed the processing of authorizations and
       travel claims. The Department plans to implement a pilot program to test a new,
       web-based system, E-travel, which will replace Travel Manager in about 2007.




62 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



However, Embassy New Delhi could use the Travel Manager application until it is
replaced.


   Recommendation 20: Embassy New Delhi and its constituent posts should
   use the Department’s Travel Manager software for travel authorizations, ad­
   vances, and vouchers. (Action: Embassy New Delhi)


     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



   Recommendation 21: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                      63 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





64 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                              QUALITY OF LIFE


Health Units

     The quality of medical services available varies among the posts in India.
Embassy New Delhi’s regional medical officer visits the consulates regularly, and
the embassy’s generously staffed health unit provides satisfactory services for
embassy staff and dependents. There are three regional doctors, including a re­
gional psychiatrist, one direct-hire health practitioner, three part-time nurses, a
laboratory technician, a locally-employed assistant laboratory technician, a pharma­
cist, and three other locally-employed administrative staff, including a receptionist.
The unit’s workload does not require a medical aide who performs clerical and
cleaning duties or a supply clerk who has inventory duties only for expendable
supplies. In most health units, nurses and administrative assistants perform some
administrative duties. OIG believes the embassy could eliminate these two posi­
tions, as mentioned in the 1999 inspection report.

    In a unique configuration for any embassy, the health unit has its own phar­
macy. The pharmacy provides without charge certain vaccines, malaria pills,
fluoride supplements for children, and medications for gastrointestinal complaints.
Other items require modest payments. Embassy New Delhi’s pharmacy saves post
and embassy personnel money by having readily available, reliable, low-cost medi­
cations, including those for allergies, hypertension, and arthritis.

     Embassy New Delhi’s health unit has created an inventory system for its
medications, but does not maintain an inventory for expendable medical supplies.
In addition, consulates that receive medications from the pharmacy do not main­
tain inventories of those medications at their locations. OIG believes each con­
stituent post should keep an inventory of Embassy New Delhi-supplied medica­
tions.


   Recommendation 22: Embassy New Delhi should maintain an inventory
   for expendable medical supplies and direct the constituent posts to maintain
   inventory records for medical supplies and controlled drugs. (Action:
   Embassy New Delhi)



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005          65 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



           Consulate General Calcutta employs a local doctor who has office hours five
       hours a week at the consulate general. Consulate General Chennai employs a local
       nurse and is establishing an attractive and functional medical unit. Its proximity to
       the public toilets for American Citizens Services clients is unfortunate, but its
       location is excellent for its clientele. A local doctor is also employed for five hours
       each week and is available on-call. In all, OIG found medical services at both
       consulate generals to be adequate.

           Consulate General Mumbai’s medical unit is poorly located in an untidy annex
       at the end of a long, dingy hallway, up about five stairs. The health unit is not
       handicap-accessible and an ambulance could not reach anywhere near it. The part-
       time doctor who provided medical and referral services for years was popular but
       often absent and is now on extended leave-without-pay. The consulate now has a
       short-term contract with a local clinic that makes two doctors available for ten
       hours per week. This situation sufficiently improves the medical services.

       Community Liaison Offices

            Embassy New Delhi’s community liaison office (CLO) employs two part-time
       eligible family members and a full-time LES. The section is active in planning trips
       and implementing a sponsorship program. The weekly newsletter, India Ink, num­
       bers about 28 pages, and is often repetitive. The CLO could shorten India Ink and
       publish it less frequently. Unmarried officers and couples without children com­
       plain that the CLO’s focus on families short-changes their needs.

            Consulate General Mumbai’s CLO, a single room with a desk and two chairs
       and the small library, affords no privacy. The office is located down a long, untidy
       hallway in an annex outside of the main building. The CLO publishes the newslet­
       ter, Mumbai Mumbles, monthly. It is also long and repetitive.

           Consulate General Chennai has a fine CLO arrangement with an eligible family
       member and a LES who work well together and provide a lively, excellent program.
       Many trips are successful and well attended. The newsletter, Chennai Masala, is
       well written and informative.

           Consulate General Calcutta does not have a CLO.

       Schools
            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6) . The campus includes a pre-school and an elementary,



66 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



middle, and high school. (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6) . Parents are satisfied with
the school.

                                             , is fully accredited and adequate.
    (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
The community’s concerns focus more on school transportation issues than on the
quality of education and services.

     The Department does not recommend the (b) (6)(b) (6)(b) (6)(b) (6)                  for
Consulate General Calcutta’s dependent children because it is not accredited and
its facilities are poor. (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)

     (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)       . The school’s new director is active and has been
working closely with the consul general to resolve long-standing financial and tax
issues with the Indian government.

American Community Support Association

     Embassy New Delhi’s American Community Support Association (ACSA)
offers the embassy community such services as a commissary with a small branch
operation in Consulate General Mumbai, a restaurant, three cafeterias, a bowling
alley, a video club, and recreational facilities. It also sells gasoline and diesel fuel to
direct-hire staff in New Delhi and to the embassy for its official vehicles. ACSA,
located in the U.S.-owned housing compound, employs over 120 persons and
earned a net profit of $54,488 in 2004. ACSA’s board of directors, the manage­
ment counselor, and ACSA’s management staff are working to address management
weaknesses and the embassy community’s concerns.

    In March 2005, the community elected a new board of directors, amended
ACSA’s bylaws, and implemented corrective actions to overcome deficiencies in
ACSA’s operations. OIG commended these proactive steps and encouraged the
association to continue monitoring its internal controls.

    OIG identified a serious weakness in ACSA’s granting of unauthorized person­
nel access to packaged duty-free goods. For example, in New Delhi it appears that
locally hired American teachers are purchasing duty-free goods. In Mumbai, third-
country diplomats, whose names are not on the embassy’s approved list for access
to the commissary, were purchasing packaged duty-free goods. ACSA must imme­
diately discontinue allowing unauthorized people to use its commissaries.



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                    67 .

                    SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED




       Recommendation 23: Embassy New Delhi should direct the American
       Community Support Association to establish procedures that allow only ap­
       proved individuals access to its commissaries. (Action: Embassy New Delhi)




68 .                      OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


             SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                  MANAGEMENT CONTROLS

    The Chief of Mission Management Controls Statement of Assurance for 2004
correctly did not report material weaknesses. The embassy used the Department’s
risk assessment questionnaire as the basis for its management controls assertions.
The embassy’s 2003 statement of management controls reported a case of theft
and collusion that implicated maintenance and maintenance supply staff. The
embassy’s corrective action plan transferred responsibility for inventory controls
from the facilities maintenance supervisor to the general services office.

American Community Support Association:
Alcoholic Beverage Sales

    The association must focus on controlling alcoholic beverage sales. Although
the commissary keeps ration control cards for each member, there is no evidence
that anyone in Mumbai or New Delhi monitors the ration cards. In fact, ACSA
monitors only the top 20 liquor buyers in New Delhi. Further, monthly liquor
allowances vary between the commissaries in Mumbai and New Delhi. For ex­
ample, New Delhi’s TDY employees who become ACSA members may purchase
two bottles of liquor weekly. In New Delhi, embassy employees may buy three
bottles of liquor monthly. In Mumbai, employees may buy six bottles of liquor
monthly. OIG reviewed the ration cards in Mumbai and found some members
purchased three or four times more than their quotas. ACSA must monitor liquor
limits and establish consistent rations for all commissary members.


   Recommendation 24: Embassy New Delhi, in coordination with the Bureau
   of Administration, should direct the American Community Support Associa­
   tion to monitor liquor quotas each month and to establish consistent limits on
   liquor purchases at all commissaries. (Action: Embassy New Delhi, in coordi­
   nation with A/OPR)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005      69 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       American Community Support Association
       Commissary in Mumbai

           ACSA’s commissary is at Washington House in Mumbai and is open three times
       a week. Many staff members complained about the commissary having expired
       goods, asserting that ACSA New Delhi purposely sends expired goods, and com­
       plained that shipments take too long. OIG found no evidence that ACSA inten­
       tionally sends expired goods to Mumbai. To remedy the concerns, ACSA has hired
       a purchasing manager and commissary manager who will work in New Delhi to
       provide the necessary oversight and direction for Mumbai’s operations.

           The Mumbai commissary has one full-time and one part-time employee. OIG
       believes that having this number of employees, with almost no supervision from
       New Delhi’s ACSA management, could be a liability for the association. For
       example, the full-time employee orders goods, receives merchandise, performs the
       inventory, collects members’ payments, and performs all ACSA administrative
       duties in Mumbai. The part-time employee only assists in putting items on the
       shelves. ACSA should shift some duties from the full-time employee to the part-
       time employee. ACSA needs to segregate duties between the two employees to
       reduce potential vulnerabilities in the commissary operations. OIG addressed this
       with an informal recommendation.

       Mumbai American Recreation Association

           Consulate General Mumbai’s employee association, the Mumbai American
       Recreation Association (MARA), fits the mini-association category because its
       gross revenue is less than $120,000 a year. MARA is very active in the community
       and supports CLO events, but does not have oversight responsibility over ACSA’s
       commissary. MARA uses George’s, a recreational area within Washington House,
       to sponsor events where alcoholic and non-alcoholic beverages and food are sold.
       Local residents, third-country nationals, and diplomats attend MARA functions,
       and the consulate’s RSO reviews MARA’s guest lists prior to these events.

            MARA sells drink tickets to raise funds, and it buys some of the alcohol it re­
       sells at George’s from the ACSA commissary. Using duty-free, imported goods for
       resale is illegal. MARA must discontinue buying duty-free imported goods from
       ACSA for resale.




70 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 25: Embassy New Delhi, in coordination with the Bureau
   of Administration, should direct the Mumbai American Recreation Associa­
   tion to stop reselling duty-free, imported goods. (Action: Embassy New
   Delhi, in coordination with A/OPR)


    MARA has a new executive board whose members are working closely with the
Department’s Commissary and Recreation office to update MARA’s charter and
bylaws. However, MARA has been late in fulfilling some administrative require­
ments.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005   71 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





72 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





      INFORMATION MANAGEMENT AND
     INFORMATION SYSTEMS SECURITY


    Embassy New Delhi and its constituent posts operate extensive information
management (IM) programs that include system administration of unclassified and
classified networks, diplomatic and classified pouch, radio and telephone mainte­
nance, and telecommunication support. They also provide regional support to
other posts in the Near Eastern Affairs and SA bureaus.

    All locations in India scored below average on most IM issues in OIG’s man­
agement operations questionnaires, particularly on oversight, additional local area
networks, and implementation of the information systems security officer (ISSO)
program. OIG has provided informal recommendations to address deficiencies in
training, change control boards, records management, security documentation, and
access controls.



INFORMATION MANAGEMENT
Management Oversight

    Embassy New Delhi systems staff consists of an information management
officer (IMO) who currently oversees an information systems center (ISC) led by
the information systems officer (ISO) and an information program center (IPC) led
by the information program officer (IPO). The IMO only provides minimal techni­
cal advice to the constituent posts and no management oversight. This is contrary
to 5 FAM 121.1(6)(a), which states the IMO is responsible for all IM operations at
constituent posts.

    Two consulates general demonstrate the varied performance of the IM program
in mission India. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)        In fact,



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                        73 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       OIG saw that the first-tour information management specialist has assumed the
       primary leadership role of the IM section. This inadequate attention from senior
       management has resulted in several IM and information systems security deficien­
       cies, for which OIG has provided formal and informal recommendations.

           Consulate General Chennai has followed the majority of department regula­
       tions and guidelines pertinent to IM and information security, despite its limited
       staffing resources and deplorable post communication center. OIG received
       numerous positive inputs from consulate staff on the IM staff ’s technical ability
       and customer service. Embassy New Delhi and the other constituent posts can use
       Consulate General Chennai’s systems staff as a resource on how to implement
       patch management, conduct ISSO duties, and manage general systems administra­
       tion.

           To ensure consistency among all constituent posts’ IM operations and to
       comply with 5 FAM requirements, the IMO should be the reviewer of record on
       the employee evaluation reports of senior information management staff at Consu­
       lates General Chennai, Mumbai, and Calcutta (when the position is staffed this
       summer). The IMO can conduct DVCs with the information management staff at
       the constituent posts to keep abreast of operational issues or concerns. (The
       mission has implemented an innovative, financially practical way of conducting
       DVCs that the IMO should use to increase his oversight of the IM staff.)


          Recommendation 26: Embassy New Delhi should include the information
          management officer as the reviewer of record for senior information manage­
          ment staff at all constituent posts starting with the April 2005 work require­
          ments. (Action: Embassy New Delhi)


       Information Management Staffing

           Consulate General Chennai’s systems staff of three LES is not sufficient to
       maintain the operations of its expanding, unclassified network of approximately
       250 workstations and 12 servers. Current staffing is based on 1997 support re­
       quirements, and the consulate staff has at least doubled since then. To preserve
       high-level customer support and ensure that all Department configurations are
       maintained on workstations and servers, systems staffing should increase to re­
       spond to the post’s current staffing and future growth.




74 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 27: Embassy New Delhi should increase Consulate
   General Chennai’s locally employed systems staff to meet current and future
   unclassified support requirements. (Action: Embassy New Delhi)


   The senior IM specialist at Consulate General Mumbai does not follow the 5
FAM 121.1(3)(c) HR requirements and has never met with several LES to conduct
counseling or discuss work requirements.


   Recommendation 28: Embassy New Delhi should direct the senior informa­
   tion management specialist to schedule and conduct counseling sessions with
   locally employed staff. (Action: Embassy New Delhi)


Information Management Training

    Embassy New Delhi is currently considered a training post for first and second-
tour IM specialists. The specialists rotate through IPC functions on a quarterly
basis, but are never rotated through the ISC. An IM specialist should also have a
rotation in the ISC to obtain experience in all of the embassy’s information technol­
ogy operations.

    Consulate General Mumbai is upgrading its unclassified and classified networks
to the latest approved operating system, but none of the LES has had systems
administrator training to support the new operating system. This could make the
transition difficult.

Dedicated Internet Networks

    Embassy New Delhi and its constituent posts have dedicated Internet net­
works, called Information Resource Center local area networks (IRC LAN), which
are legacies of the public affairs network (PDNet). The posts requested waivers
from the Bureau of Information Resource Management (IRM) in June 2004 to
continue operating the networks. IRM granted temporary waivers for one year, but
has not made a permanent decision. OIG believes there is inadequate justification
for retaining these networks in their current configuration.

    Each IRC LAN consists of several workstations and servers. The workstations
are used for public Internet access, clientele access to the library software applica­
tion, and administration of the library software application. Staff can also access


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005          75 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       the Internet, although they have Internet access through OpenNet Plus. OIG
       believes that post can save financial and staff resources, while following Depart­
       ment guidelines, by creating a closed network to use and manage the library soft­
       ware and for connecting to an integrated services digital network (ISDN) provider,
       to allow public Internet access to a few workstations. This would alleviate the
       need for all but one server for each location, remove several workstations, and
       allow the upgrade of remaining workstations using the post’s current, unclassified
       inventory, which is scheduled for disposal. Modifying the current configuration of
       the IRC LAN could save the mission approximately $26,000 per year in connection
       costs.

           OIG also found that Embassy New Delhi and Consulate General Calcutta have
       secondary dedicated Internet networks that duplicate the capabilities provided by
       OpenNet Plus. This contradicts the Department policy (5 FAM 874) that posts use
       OpenNet Plus to access the Internet. Consulate General Calcutta has requested an
       IRM waiver, and the decision is pending. The maintenance and operating require­
       ments for these networks draw on the post’s already limited staff and financial
       resources.

       Standalone Internet Workstations

           Consulate General Mumbai has no reason to maintain the standalone worksta­
       tion in the management officer’s office. Eligible family members use this worksta­
       tion for general Internet access, and post staff use it if they cannot access a website
       on OpenNet plus. At 5 FAM 784, there is guidance for providing eligible family
       members access to OpenNet Plus, and staff can work with IRM to resolve website
       access problems.

           The consulate general has another standalone Internet workstation, in the ACS
       section. American citizens use this workstation to access the Internet-based
       Registration Service software, which is part of the CA warden system. The em­
       bassy should request a waiver from IRM to operate this system, as required by 5
       FAM 874.


          Recommendation 29: Embassy New Delhi should direct Consulate General
          Mumbai to disconnect the standalone Internet workstation in the management
          officer’s office and provide OpenNet Plus access to eligible family members
          as appropriate. (Action: Embassy New Delhi)




76 .                           OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Local Change-Control Board

   To manage its hardware, software, and network infrastructures, Embassy New
Delhi and its constituent posts are required to implement functioning, local,
change-control boards (CCBs) that comply with the Department’s Information
Technology CCB Standard Operating Procedures. They have not done so. Al­
though Embassy New Delhi has documented, local CCB standard operating proce­
dures for mission India, the procedures are not being followed. Furthermore,
Embassy New Delhi does not have a local CCB process for its networks.

    The current version of the standard operating procedures does not allow each
constituent post to have its own local CCB. Currently, each post’s systems staff
sends an e-mail to Embassy New Delhi’s ISO, requesting clearance of the software
or hardware to be added to the network. The ISO decides to allow or prohibit the
installation. However, Embassy New Delhi is not part of the constituent post’s
unclassified and classified networks, and Embassy New Delhi’s systems staff
cannot determine fully the impact of an installation on the constituent post’s
network.

Managing Operations

    Embassy New Delhi, Consulate General Chennai, and Consulate General
Mumbai do not have any way to track the tasks of the help desk or IPC staff.
Implementing a tracking system would allow management to perform workload
analysis, measure staffing requirements, and review trend analysis and might
improve customer-response times. The Department has Universal Trouble Ticket
software that can automate these tasks on the unclassified network. Consulates
General Calcutta and Mumbai have also not designated records management
officers and have not implemented the required records management procedures.

Physical Security

    Several physical security deficiencies exist throughout the mission. (b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)      Embassy New Delhi placed a work order for
secure racks to be installed in December 2004, but the racks have not been in­
stalled. Consulate General Calcutta has implemented most physical security
requirements for protecting computer equipment, (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                      77 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       INFORMATION SYSTEMS SECURITY
           The information systems security program at Embassy New Delhi and its
       constituent posts is not as effective as it should be because of inappropriate assign­
       ment of duties, nonperformance of duties, (b) (2)(b) (2)(b) (2)(b) (2)(b) (2) , and
       inadequate system security documentation. Many of these deficiencies are due to
       inadequate management oversight.

       Information Systems Security Officer

           Embassy New Delhi has not properly implemented the Department’s ISSO
       program. Currently the ISSO for the unclassified system is also the ISO, and the
       ISSO for the classified network is an IPC staff member. This results in inadequate
       separation of the duties of monitoring a system and of providing an operational
       system and is an internal control weakness.

            In addition, the ISO performs only a few of the duties of an ISSO. For ex­
       ample, the ISO has used the department network scanning tool only once, although
       the scan should be conducted quarterly to ensure that the Department’s security
       settings are in effect. OIG also found that the servers were not configured cor­
       rectly to log many server security events regarding workstation and user account
       maintenance, as required by the Diplomatic Security Windows NT 4.0 Configura­
       tion guidelines. Furthermore, the alternate ISSO does not have an administrative
       account, as required by 12 FAM 622, to conduct the ISSO duties.


          Recommendation 30: Embassy New Delhi should designate the information
          program officer as the information systems security officer for the unclassified
          network and designate the information systems officer as the information sys­
          tems security officer for the classified network. (Action: Embassy New Delhi)



          Recommendation 31: Embassy New Delhi should configure all unclassified
          workstations and servers to meet all department security and configuration
          guidelines. (Action: Embassy New Delhi)


       Patch Management

            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


78 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


    OIG found that all mission SMS servers are reporting incorrect patch status
results to the Department. The embassy’s systems staff has been working with the
NCC to fix the problem, and the NCC has recommended that the post acquire one
server for each network segment, for SMS to work correctly. Embassy New Delhi
has one SMS server, and needs three more servers to support SMS. The systems
staff has not opened any tickets with the IRM InfoCenter to track this on-going
SMS problem. The embassy and constituent posts should create tickets with the
IRM InfoCenter to track all problems pertaining to patch management.


   Recommendation 32: Embassy New Delhi should report, and direct each
   constituent post to report, all patch management problems to the Bureau of
   Information Resource Management’s InfoCenter. (Action: Embassy New
   Delhi)



   Recommendation 33: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




   Recommendation 34: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                      79 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


           (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


            (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




80 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





             FORMAL RECOMMENDATIONS

Recommendation 1: Embassy New Delhi, in coordination with the Bureau of
  Human Resources and the Bureau of Administration, should develop, and the
  Department should implement, tour of duty and allowances policies that ratio­
  nalize the tours of duty and allowances across all four posts, reducing the stan­
  dard tour of duty in India to two years with one rest and recuperation break.
  (Action: Embassy New Delhi, in coordination with M/DGHR and A)

Recommendation 2: Embassy New Delhi, in coordination with the Bureau of
  South Asian Affairs (SA), should undertake a feasibility study for establishing a
  consulate in Hyderabad, exploring fully the major resource implications, with a
  target date for establishing such a consulate of no later than 2008. (Action:
  Embassy New Delhi, in coordination with SA)

Recommendation 3: Embassy New Delhi, in coordination with the Bureau of
  Oceans, International Environment and Scientific Affairs and the Office of the
  Legal Adviser, should establish a sunset date for active U.S. India Fund and In­
  terim Fund projects that still have obligated but undisbursed balances and in­
  form the relevant U.S. government agencies of this action. (Action: Embassy
  New Delhi, in coordination with L and OES)

Recommendation 4: Embassy New Delhi, in coordination with the Bureau of
  Oceans, International Environment and Scientific Affairs and the Office of the
  Legal Adviser, should notify U.S. government agencies that expired obligations
  in projects they managed will be withdrawn and returned to the appropriate
  fund. (Action: Embassy New Delhi, in coordination with L and OES)

Recommendation 5: Embassy New Delhi, in coordination with the Bureau of
  Oceans, International Environment and Scientific Affairs, the Office of the
  Legal Adviser, and other appropriate bureaus, should seek and reach agreement
  with the government of India on the creation of one or more new programs to
  be endowed with the funds remaining in the United States India Fund and the
  Interim Fund. (Action: Embassy New Delhi, in coordination with OES and L)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005       81 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       Recommendation 6: Embassy New Delhi, working with the Bureau of Overseas
         Buildings Operations, the Bureau of Consular Affairs, and the Bureau of South
         Asian Affairs, should fully fund Consulate General Calcutta’s revised consular
         reconfiguration proposal. (Action: Embassy New Delhi, in coordination with
         OBO, CA, and SA)

       Recommendation 7: Embassy New Delhi, in coordination with the Bureaus of
         South Asian Affairs, Consular Affairs, and Human Resources, should identify
         and fund seven new, entry-level, consular positions countrywide. (Action: Em­
         bassy New Delhi, in coordination with SA, CA, and M/DGHR)

       Recommendation 8: Embassy New Delhi, in coordination with the Bureau of
         South Asian Affairs and the Bureau of Consular Affairs, should routinely budget
         sufficient funds for housing for temporary, consular annuitant staff. (Action:
         Embassy New Delhi, in coordination with SA and CA)

       Recommendation 9: Embassy New Delhi should program into the work require­
         ments of the deputy consul general a requirement that he routinely dedicate
         time to oversight of the visa process through regular adjudication meetings,
         daily observation of the interview process, and interviewing alongside the less
         experienced officers. (Action: Embassy New Delhi)

       Recommendation 10: Embassy New Delhi, in coordination with the Bureau of
         Consular Affairs, the Bureau of South Asian Affairs, and the Bureau of Human
         Resources, should require that any new entry-level consular positions over and
         above those already established in New Delhi at the time of this inspection be
         two-year consular assignments, not rotational positions. (Action: Embassy
         New Delhi, in coordination with CA, SA, and M/DGHR)

       Recommendation 11: Embassy New Delhi’s minister counselor for consular af­
         fairs should spend at least a week on the ground in Chennai to review consular
         operations, propose necessary procedural changes, and brief all affected Ameri­
         can officers on the needed changes. (Action: Embassy New Delhi)

       Recommendation 12: Embassy New Delhi should reprogram its entry-level immi­
         grant visa officer in Chennai to the nonimmigrant visa unit, taking care to ensure
         that one or more nonimmigrant visa officers are cross-trained in immigrant visa
         work. (Action: Embassy New Delhi)




82 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 13: Embassy New Delhi, in coordination with the Bureaus of
  South Asian Affairs and Human Resources, should identify and fund resources
  to establish and fill an information officer position in Mumbai and an informa­
  tion officer position in Chennai. (Action: Embassy New Delhi, in coordination
  with SA and M/DGHR)

Recommendation 14: Embassy New Delhi, in coordination with the Bureau of
  South Asian Affairs and the Office of the Undersecretary for Public Diplomacy
  and Public Affairs, should draft a strategic plan for the development of a model
  American Center in New Delhi and submit this plan to the Department for ac­
  tion. (Action: Embassy New Delhi, in coordination with SA and R)

Recommendation 15: Embassy New Delhi, in coordination with the Bureau of
  South Asian Affairs, should reprogram the public affairs section program devel­
  opment officer position no. 60-483000-4400 P as a public diplomacy officer po­
  sition and rewrite the work requirements for the position to emphasize the pub­
  lic diplomacy aspects of the position. (Action: Embassy New Delhi, in coordi­
  nation with SA)

Recommendation 16: Embassy New Delhi, in coordination with the Bureau of
  South Asian Affairs and the Bureau of Human Resources, should rewrite the
  work requirements for the deputy management officer’s position to include man­
  agement oversight and responsibility for public affairs administrative matters.
  (Action: Embassy New Delhi, in coordination with SA and M/DGHR)

Recommendation 17: Embassy New Delhi should direct Consulate General
  Mumbai to develop a schedule that staggers the drivers’ arrivals and departures
  to cover more hours during evenings and weekends without incurring overtime.
  (Action: Embassy New Delhi)

Recommendation 18: Embassy New Delhi should send its well-trained, experi­
  enced human resources local staff to train local staff in similar positions at con­
  stituent posts. (Action: Embassy New Delhi)

Recommendation 19: Embassy New Delhi should discontinue direct-charging the
  agencies housed at the American centers for administrative services and insti­
  tute a process for charging these services under the International Cooperative
  Administrative Support Services. (Action: Embassy New Delhi)

Recommendation 20: Embassy New Delhi and its constituent posts should use
  the Department’s Travel Manager software for travel authorizations, advances,
  and vouchers. (Action: Embassy New Delhi)



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005         83 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       Recommendation 21: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
          (b) (2)(b) (2)


       Recommendation 22: Embassy New Delhi should maintain an inventory for ex­
         pendable medical supplies and direct the constituent posts to maintain inventory
         records for medical supplies and controlled drugs. (Action: Embassy New
         Delhi)

       Recommendation 23: Embassy New Delhi should direct the American Commu­
         nity Support Association to establish procedures that allow only approved indi­
         viduals access to its commissaries. (Action: Embassy New Delhi)

       Recommendation 24: Embassy New Delhi, in coordination with the Bureau of
         Administration, should direct the American Community Support Association to
         monitor liquor quotas each month and to establish consistent limits on liquor
         purchases at all commissaries. (Action: Embassy New Delhi, in coordination
         with A/OPR)

       Recommendation 25: Embassy New Delhi, in coordination with the Bureau of
         Administration, should direct the Mumbai American Recreation Association to
         stop reselling duty-free, imported goods. (Action: Embassy New Delhi, in coor­
         dination with A/OPR)

       Recommendation 26: Embassy New Delhi should include the information man­
         agement officer as the reviewer of record for senior information management
         staff at all constituent posts starting with the April 2005 work requirements.
         (Action: Embassy New Delhi)

       Recommendation 27: Embassy New Delhi should increase Consulate General
         Chennai’s locally employed systems staff to meet current and future unclassified
         support requirements. (Action: Embassy New Delhi)

       Recommendation 28: Embassy New Delhi should direct the senior information
         management specialist to schedule and conduct counseling sessions with locally
         employed staff. (Action: Embassy New Delhi)

       Recommendation 29: Embassy New Delhi should direct Consulate General
         Mumbai to disconnect the standalone Internet workstation in the management
         officer’s office and provide OpenNet Plus access to eligible family members as
         appropriate. (Action: Embassy New Delhi)



84 .                              OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Recommendation 30: Embassy New Delhi should designate the information pro­
  gram officer as the information systems security officer for the unclassified net­
  work and designate the information systems officer as the information systems
  security officer for the classified network. (Action: Embassy New Delhi)

Recommendation 31: Embassy New Delhi should configure all unclassified work­
  stations and servers to meet all department security and configuration guide­
  lines. (Action: Embassy New Delhi)

Recommendation 32: Embassy New Delhi should report, and direct each con­
  stituent post to report, all patch management problems to the Bureau of Infor­
  mation Resource Management’s InfoCenter. (Action: Embassy New Delhi)

Recommendation 33: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Recommendation 34:(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
   (b) (2)(b) (2)(b) (2)




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                  85 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





86 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





          INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Infor­
mal recommendations will not be subject to the OIG compliance process. How­
ever, any subsequent OIG inspection or on-site compliance review will assess the
mission’s progress in implementing the informal recommendations.

Consular

The recent tsunami disaster highlighted weaknesses in the mission’s warden sys­
tems. Although the Indian posts encourage American residents to register, there is
minimal outreach to the transient tourist and business populations.

Informal Recommendation 1: Embassy New Delhi and its constituent posts
should include the principal tourist hotels and resorts as well as American compa­
nies in the warden alert systems.

The locally employed supervisor in American Citizen Services (ACS) in New Delhi
has an extensive network of contacts that she uses in extremely complicated cases.
No one else in the consular section has access to her contact file, and no one is
groomed as her backup.

Informal Recommendation 2: Embassy New Delhi should identify at least one
officer, the minister counselor for consular affairs, and two locally employed staff
to interact with government contacts so that, in the LES supervisor’s absence,
these employees can facilitate ACS consular business in sensitive cases.

Appointment backlogs encourage Indian government and business officials to
approach their consulate contacts for expedited appointments for persons who do
not meet referral guidelines. Mumbai already has a written, standard operating
procedure for processing such requests.

Informal Recommendation 3: Embassy New Delhi should require that officers
in Consulate General Mumbai follow standard operating procedures in requesting
expedited appointments, rather than make ad hoc requests to consular personnel.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        87 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




       Entry-level consular officers and mid-level managers spend dozens of hours of
       uncompensated overtime per week completing basic assignments. Some of the
       overtime is generated by the requirement to attend up to four hours of meetings per
       week.

       Informal Recommendation 4: Embassy New Delhi should review the Mumbai
       consular section’s allotment of funds for machine-readable-visa overtime pay,
       reprogramming unused funds where possible, to allow Mumbai to plan overtime
       judiciously.

       Informal Recommendation 5: Embassy New Delhi should require that Consu­
       late General Mumbai review and rationalize the meeting schedule for consular
       officers.

       Informal Recommendation 6: Embassy New Delhi should work with Consulate
       General Mumbai to maintain its administrative day schedule and leave those days
       free of routine meetings. The American citizen services section should also close
       on administrative days, except for emergencies or for long-distance travelers.

       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)     .

       Informal Recommendation 7: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)


       The fraud prevention manager position is designated as an FS-03, but no officer at
       this grade has been found to fill it. Currently, entry-level officers rotate into that
       position every few months and report to the mid-level manager, who also oversees
       three other functions.

       Informal Recommendation 8: Embassy New Delhi should assign the consular
       section chief in Mumbai as supervisor of the fraud-prevention manager.

       Informal Recommendation 9: Embassy New Delhi should require that the
       Mumbai fraud prevention manager spend a full tour in that portfolio to facilitate
       liaison with the assistant regional security officer-investigator and local law en­
       forcement.




88 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Public Diplomacy

The public affairs section manages an in-house, small grants program. This pro­
gram would be more useful if other sections had an opportunity to submit and
review grant proposals.

Informal Recommendation 10: Embassy New Delhi should form a small grants
committee headed by the public affairs section and invite grant proposals and grant
reviews by other embassy sections, especially the political, economic, and interna­
tional narcotics and law enforcement sections.

For years, Embassy New Delhi has tried to secure a contribution to the United
States Educational Foundation in India (USEFI) from the Indian government. The
effort has made some progress, but there is still no decision from the Indian govern­
ment on providing a grant.

Informal Recommendation 11: Directly and acting via the embassy officers on
the foundation’s board, Embassy New Delhi should continue to press the govern­
ment of India for a contribution to the United States Education Foundation in
India.

USEFI has office space in the American Centers in Mumbai, Calcutta, and
Chennai. The Mumbai American Center will relocate to the new consulate com­
pound in Mumbai by 2008, but there will not be space for USEFI in the new
facility.

Informal Recommendation 12: Embassy New Delhi should encourage a proac­
tive approach by the United States Education Foundation in India to identify new
office space and secure funding for its Mumbai branch office.

Resource Management
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)


Informal Recommendation 13: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) .

The financial management office in Calcutta has two cashier windows, an outside
window for vendor payments and an inside one for in-house customers.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005               89 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 14: Embassy New Delhi should require that all
       financial transactions at Consulate General Calcutta take place at the outside
       cashier window.

       The outside cashier window in Consulate General Calcutta is open from 9 a.m. to
       11 a.m.

       Informal Recommendation 15: Embassy New Delhi should require that the
       Calcutta Consulate General’s cashier window extend its service hours from 10 a.m.
       to 4 p.m. to accommodate vendors and in-house customers.

       The financial management office at Consulate General Calcutta is not recording or
       maintaining evidence of sub-cashier cash verifications.

       Informal Recommendation 16: Embassy New Delhi should require that Consu­
       late General Calcutta record and maintain sub-cashier, unannounced cash-verifica­
       tion information.

       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)    .

       Informal Recommendation 17: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       The certifying officer in Consulate General Calcutta does not cancel vouchers and
       supporting documentation when they are certified.

       Informal Recommendation 18: Embassy New Delhi should require that Consu­
       late General Calcutta cancel all vouchers and supporting documents when they are
       certified.

       Consulate General Calcutta sends certified vouchers through Embassy New Delhi
       instead of sending them directly to the Bangkok Financial Service Center.

       Informal Recommendation 19: Embassy New Delhi should install encryption
       devices and software at Consulate General Calcutta to transmit certified vouchers
       electronically to the Bangkok Financial Service Center.

       A sign on the door of the Class B cashier office at Consulate General Mumbai
       shows the names of the authorized employees who can enter the office. Nonethe­
       less, other consulate personnel have access to the office.




90 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 20: Embassy New Delhi should require that only
authorized personnel enter the Class B cashier area at Consulate General Mumbai.

Health Units

Consulate General Calcutta is holding onto a significant amount of excess medical
supplies.

Informal Recommendation 21: Embassy New Delhi should require Consulate
General Calcutta to dispose of excess medical supplies in accordance with Depart­
ment regulations and procedures.

Human Resources

The federation of employees associations does not meet regularly with the front
office and has been prevented from using DVCs to meet with colleagues and
officers at constituent posts.

Informal Recommendation 22: Embassy New Delhi should meet at least quar­
terly with employee associations’ representatives and should encourage and allow
the committees to use digital video conferencing to air and understand the constitu­
ent posts’ concerns.

Facilities Management

The consul general’s residence in Chennai needs extensive repairs.

Informal Recommendation 23: Embassy New Delhi should direct the facilities
management officer to visit and remain at Consulate General Chennai for sufficient
time to review all U.S. government-owned properties and implement proper mainte­
nance and repair.

Procurement

Consulates General Chennai and Mumbai do not use the Department’s WebPASS
application to expedite procurements and retrieve fund-cite data from Embassy
New Delhi.

Informal Recommendation 24: Embassy New Delhi should provide the consu­
lates with WebPASS electronic procurement capability.


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        91 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Consulate General Chennai does not have a purchase card.

       Informal Recommendation 25: Embassy New Delhi should provide bulk-funded
       purchase cards to facilities management staff of Consulate General Chennai and
       other agencies.

       Embassy New Delhi has not permitted Consulate General Chennai to use blanket
       purchase orders to meet recurring requirements for maintenance, janitorial, and
       other supplies and services.

       Informal Recommendation 26: Embassy New Delhi should provide appropriate
       funding and allow Consulate General Chennai to award blanket purchase orders.

       One of the two warehouses on Consulate General Chennai’s compound does not
       have shelving. As a result, items are difficult to find and inventory cannot be
       conducted efficiently.

       Informal Recommendation 27: Embassy New Delhi should install shelving in
       Consulate General Chennai’s main warehouse.

       Consulate General Calcutta does not perform periodic, unannounced spot-checks
       on expendable and non-expendable property and obsolete items.

       Informal Recommendation 28: Embassy New Delhi should ensure that the
       accountable property officer at Consulate General Calcutta performs periodic,
       unannounced spot-checks on expendable and non-expendable property.

       Embassy New Delhi’s warehouse is extremely dusty, and some property is not
       covered.

       Informal Recommendation 29: Embassy New Delhi should protect all ware­
       housed property from dust and other environmental effects.

       Motor Pool

       Embassy New Delhi’s motor pool drivers do not always prepare the reverse side of
       the Vehicle Log, Form OF-108, despite the Department requirements.

       Informal Recommendation 30: Embassy New Delhi should require its drivers to
       complete the reverse side of the Vehicle Log (Form OF-108).




92 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Quality of Life

The embassy’s newsletter is very long and, because it is published weekly, it is
repetitive and not entirely useful. The same can be said for the newsletter at
Consulate General Mumbai.

Informal Recommendation 31: Embassy New Delhi should review all of the
community newsletters to ensure they are neither repetitive nor published too
frequently.

Health Unit

There may be excessive administrative staff in Embassy New Delhi’s health unit.

Informal Recommendation 32: Embassy New Delhi should review the need for
the supply clerk (DLN-502003) and the medical aide (DLA-502004) in Embassy
New Delhi’s health unit.

American Community Support Association-
Mumbai Commissary

Consulate General Mumbai’s ACSA commissary’s full-time employee orders and
receives goods, performs inventories, collects payments, and performs all adminis­
trative duties. The part-time employee only places stock on shelves.

Informal Recommendation 33: Embassy New Delhi’s American Community
Support Association should separate the duties of its two employees in Mumbai to
ensure adequate separation of duties and proper internal controls.

Mumbai American Recreation Association

There is no memorandum of understanding between Consulate General Mumbai
and the Mumbai American Recreation Association that defines the services and
support the consulate will provide.

Informal Recommendation 34: Embassy New Delhi should direct Consulate
General Mumbai to enter into a memorandum of understanding with the Mumbai
American Recreation Association that identifies the services and support the
consulate will provide.



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005      93 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       The Mumbai American Recreation Association’s financial records are not main­
       tained in accordance with the U.S. government’s generally accepted accounting
       principles. Board members do not check the association’s receipts and balance
       sheets monthly.

       Informal Recommendation 35: Embassy New Delhi should direct the Mumbai
       American Recreation Association to maintain its financial records in accordance
       with the U.S. government’s generally accepted accounting principles and review
       balance sheets and receipts monthly.

       Information Management

       The New Delhi IMO should be the reviewer of all IM staff at constituent posts.
       To make an accurate assessment of the IM staffs’ performance, the IMO should
       visit twice a year.

       Informal Recommendation 36: Embassy New Delhi should provide adequate
       funding to allow the information management officer to travel to each constituent
       post at least twice a year to review information management staff and operation.

          Information Management Training

       Embassy New Delhi provides training to new IM staff in IPC operations only,
       which does not expose them to all information technology operations of the
       embassy.

       Informal Recommendation 37: Embassy New Delhi should include a training
       rotation in the information systems center for all information management staff.

       Consulate General Mumbai is upgrading both the unclassified and classified net­
       works to the latest Department-approved operating system, but no LES has had
       systems administrator training to support the new system.

       Informal Recommendation 38: Embassy New Delhi should provide to Consu­
       late General Mumbai’s locally employed staff systems administrator training on the
       new operating system.

          Dedicated Internet Networks

       Embassy New Delhi and Consulate General Calcutta have secondary digital infor­
       mation networks that duplicate the capabilities provided by OpenNet Plus.


94 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 39: Embassy New Delhi should remove Internet
capabilities from information resource center workstations and reconfigure the
network to operate as a standalone workgroup and direct the constituent posts to
do the same.

Informal Recommendation 40: Embassy New Delhi should disconnect the
remote Internet dial-in local area network and provide Internet capability to the
Ambassador’s residence through a local Internet service provider.

Informal Recommendation 41: Embassy New Delhi should disconnect the
secondary integrated digital network connection from Consulate General Calcutta.

    Standalone Workstations

Consulate General Mumbai has not requested a waiver from IRM to operate the
standalone Internet workstation in the ACS section.

Informal Recommendation 42: Embassy New Delhi should obtain a waiver
from the Bureau of Information Resource Management to operate the standalone
Internet workstation in the American Citizen Services section in Consulate General
Mumbai.

    Local Change Control Board

Embassy New Delhi and its constituent posts have not implemented functioning,
local CCBs that meet the Department’s Information Technology CCB Standard
Operating Procedures. Although Embassy New Delhi has documented local CCB
standard operating procedures for mission India, the procedures are not being
followed. The current version of the standard operating procedures does not allow
each constituent post to have its own local CCB. Embassy New Delhi does not
have a local CCB process for its networks.

Informal Recommendation 43: Embassy New Delhi should modify the current
local change control board standard operating procedures to include allowing each
constituent post to make decisions regarding its respective networks, in accordance
with Department requirements and to inform the Information Management Officer
of local change control board actions.

Informal Recommendation 44: Embassy New Delhi should implement mission-
wide the revised local change control board standard operating procedures.



OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005       95 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



           Managing Operations

       Embassy New Delhi and Consulates General Chennai and Mumbai do not have any
       methods to track help desk or IPC staff tasks.

       Informal Recommendation 45: Embassy New Delhi should implement tracking
       systems for help desk functions in the embassy and in Consulates General Chennai
       and Mumbai.

       Consulates General Calcutta and Mumbai have not designated records management
       officers and have not implemented the required records management procedures,
       per 5 FAM 400.

       Informal Recommendation 46: Embassy New Delhi should assign responsibility
       for records management in Consulates General Calcutta and Mumbai to their senior
       information management specialists and implement a records management pro­
       gram.

           Physical Security

       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Informal Recommendation 47: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Informal Recommendation 48: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


       Information Systems Security

           Information Systems Security Officer

       The alternate ISSO does not have an administrative account.

       Informal Recommendation 49: Embassy New Delhi should grant the alternate
       information systems security officer Domain Administrator access, enabling that
       official to conduct the duties of the primary information systems security officer in
       that officer’s absence.

96 .                               OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    Security Documentation

Consulate General Calcutta does not have an EDP. Consulate General Mumbai
has not maintained that post’s EDP and the system security plan for the classified
network.

Informal Recommendation 50: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)      .

Informal Recommendation 51: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


Informal Recommendation 52: (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)


    Systems Access Controls

Embassy New Delhi and Consulate General Calcutta do not use system access-
request forms, which require a supervisor’s signature, prior to giving someone
access to the network.

Informal Recommendation 53: Embassy New Delhi should implement a sys­
tems access-request form process at the embassy and at Consulate General
Calcutta.

    Unauthorized Software

Consulate General Mumbai systems staff has installed unapproved software tools
on their workstations.

Informal Recommendation 54: Embassy New Delhi should remove unautho­
rized software from all workstations in Consulate General Mumbai.




OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005               97 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





98 .         OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                        PRINCIPAL OFFICIALS

                                                         Name                      Arrival Date


Ambassador                                               David C. Mulford                02/04
Deputy Chief of Mission                                  Robert O. Blake                 06/03


Chiefs of Sections:


Administrative                                           James A. Forbes                 08/04
Consular                                                 William A. Bartlett             08/02
Political                                                Geoffrey R. Pyatt               08/02
Economic                                                 Lee A. Brudvig                  08/03
Public Affairs                                           Michael H. Anderson             09/02
International Narcotics and                              Laura L. Livingston             07/02
    Law Enforcement
Regional Security                                        Nace B. Crawford                09/02
Consulates
      Consul General Calcutta                            George N. Sibley                08/02
      Consul General Chennai                             Richard D. Haynes               08/02
      Consul General Mumbai                              Angus T. Simmons                08/02


Other Agencies:


Foreign Agricultural Service                             Chad R. Russell                 08/02
Department of Defense
     Army Attaché                                        Col. Steven B. Sboto            05/02
     Air Attaché                                         Col. Jeffrey A. Paulk           07/04
     Naval Attaché                                       Capt. Carlton Soderholm         01/04
Office of Defense Cooperation                            Lt. Col. Danny S. Denny         06/02
Commercial Service                                       John E. Peters                  07/03


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005                   99 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



                                                          Name                            Arrival Date
        U.S. Agency for International
           Development                                    George Deikun                             02/05
        Centers for Disease Control and
           Prevention                                     Dora L. Warren                            10/01
        U.S. Department of Homeland
           Security
              Citizen and Immigration Services            Henry G. Eager                            04/01
             Immigration and Customs
                Enforcement                               James L. Dozier                           08/02
        Drug Enforcement Administration                   Alan G. Santos                            11/01
        Federal Bureau of Investigation                   David A. Ford                             09/03
        Library of Congress                               Laila Mulgaokar                           01/03




100 .                          OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                               ABBREVIATIONS

                        A              Bureau of Administration
                   ACSA                American Community Services Association
                     ACS               American citizens services
                   AIRC                American information resources center
              A/RSO-I                  Assistant Regional Security Officer - Investigator
                      CA               Bureau of Consular Affairs
                   CAJE                Computer-assisted job evaluation
                    CCB                Change control board
                    CLO                Community liaison office
                       CS              Commercial service
                      CSI              Container Security Initiative
                CTJWG                  Counter Terrorism Joint Working Group
                   DCM                 Deputy chief of mission
                       DS              Bureau of Diplomatic Security
                    DVC                Digital video conferencing
                    EAP                Emergency action plan
                    EDP                Emergency destruction plan
                    EFM                Eligible family member
                    ELO                Entry-level officers
                     ELP               Entry-level personnel
                     EST               Environment, Science, and Technology
                  ESTH                 Environment, Science, Technology, and Health
                     FAS               Foreign Agricultural Service
                      FBI              Federal Bureau of Investigation
                     FCS               Foreign Commercial Service
                   FMO                 Financial management office(r)

OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005             101 .

                    SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED




           FMS             Facilities management services
           FPM             Fraud Prevention Manager
           FPU             Fraud Prevention Unit
             FS            Foreign Service
           GSO             General services office(r)
         G/TIP             Office of the Under Secretary for Global Affairs,
                           Office to Monitor and Combat Trafficking in
                           Persons
            HR             Human Resources
           IBRS            Internet-based registration system
          ICASS            International Cooperative Administrative
                           Support Services
            IM             Information management
           IMO             Information management office(r)
            IMS            Information management specialist
            INL            Bureau of International Narcotics and Law
                           Enforcement Affairs
            IPC            Information programs center
           IPO             Information program officer
            IRC            Information resource center
        IRC LAN            Information resource center local area network
           IRM             Bureau of Information Resource Management
            ISC            Information service center
            ISO            Information systems office(r)
           ISSO            Information systems security office(r)
             IT            Information technology
             L             Office of the Legal Adviser
           LES             Locally employed staff
         LEWG              Law enforcement working group
         LOA(s)            Letter(s) of Agreement
          LRFP             Long-range Facilities Plan

102 .             OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                        M              Office of the Under Secretary for Management
                 MARA                  Mumbai American Recreation Association
                  MCCA                 Minister counselor for consular affairs
                   MOU                 Memorandum of understanding
                    MPP                Mission Performance Plan
                    NCB                Narcotics Control Board (India)
                    NCC                Network Control Center
                     NIV               Nonimmigrant visa
                      NP               Bureau for Non-proliferation Affairs
                   NSSP                Next Steps for Strategic Partnership
                   OBO                 Bureau of Overseas Buildings Operations
                   ODC                 Office of Defense Cooperation
                    OES                Bureau of Oceans and International
                                       Environmental Scientific Affairs
                    OIG                Office of Inspector General
                    OMS                Office management specialist
                   OPIC                Overseas Private Investment Corporation
                    PAO                Public affairs office(r)
                     PAS               Public affairs section
                 PDNet                 Public diplomacy network
                      RM               Bureau of Resource Management
                    RSO                Regional security officer
                       SA              Bureau of South Asian Affairs
                     SMS               Systems management server
                    TDY                Temporary duty
                      TIP              Trafficking in persons
                   TOD                 Tour of duty
                 USAID                 U.S. Agency for International Development
                    USIF               U.S. India Fund for Cultural, Educational and
                                       Scientific Cooperation


OIG Report No. ISP-I-05-21A, Inspection of Embassy New, Delhi, India, July 2005        103 .

                    SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED




          USIA                     U.S. Information Agency
          USIS                     U.S. Information Service
          VOA                      Voice of America
          WAE                      When actually employed




104 .            OIG Report No. ISP-I-05-21A, Inspection of Embassy New Delhi, India, July 2005


        SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

